Case 3:12-cv-Q1418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6286 Page 1 of 66

' 1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

SOUTHERN DISTRICT OF CALIFORNIA

10
11
12

NATHANIEL MARCUS GANN,
Petitioner,

Civil No.

REPORT AND
RECOMMENDATION RE
DENIAL OF PETITION FOR
WRIT OF HABEAS CORPUS and

13
14
15

v.

JEFFREY BEARD, Secretary,

ORDER DENYING REQUEST
FOR AN EVIDENTIARY
HEARING

16

Respondent.

17

12-1418 JAH (BLM)

18
19

I.

INTRODUCTION

20

Petitioner Nathaniel Marcus Gann, a state prisoner proceeding pro se, has filed a

21

Petition for Writ of Habeas Corpus pursuant to 28 U.S .C. § 2254 (“Petition”), challenging

22

his conviction for murder in San Diego County Superior Court case number SCD207862.

23

(Pet. at 1, ECF No. I.)1 Respondent filed an Answer. (Mem. of P. & A. Supp. Answer

24

ECF No. 17 (“Answer”) .) Gann filed a Traverse. (ECF No. 19.) The Court has

25

reviewed the record and has considered the legal arguments presented by both

26

III

27
28

1

Page numbers for docketed materials cited in this Report and Recommendation refer to those
imprinted by the Court’s electronic case filing system.
I: Chambers Major CASES Gann v. Career al - UcvUlS-JAH i.HabelUcvl-lS-RiR(prosel.svpd. 71714

-1-

12cvl418

ER 196

I

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6287 Page 2 of 66

1

parties. For the reasons discussed below, this Court RECOMMENDS that the Petition

2

be DENIED.

3

II.

FACTUAL BACKGROUND

4

This Court gives deference to state court findings of fact and presumes them to be

5

correct; Petitioner may rebut the presumption of correctness, but only by clear and

6

convincing evidence. See 28 U.S.C. § 2254(e)(1) (West 2006); see also Parke v. Raley,

7

506 U.S. 20, 35-36 (1992) (holding findings of historical fact, including inferences

8

properly drawn from these facts, are entitled to statutory presumption of correctness).

9

The following facts are taken from the California Court of Appeal opinion2:

10

A. Factual background

11

In July 2007, Hansen, who was then 17 years old, lived with her
stepfather, Timothy MacNeil (MacNeil), on Marraco Drive in the Rolando
area of San Diego. Gann lived in Arizona and attended college there. Gann
and Hansen’s mother, to whom MacNeil had been married, had committed
suicide the previous year. MacNeil had begun dating a woman a few
months after the suicide. By July 2007 he was spending most of his time
with this woman. Hansen thought that MacNeil was ignoring her, and she
began to feel unloved and worthless. MacNeil had recently told Hansen that
she needed to prepare to move out when she turned 18. These developments
angered Hansen.

12
13
14
15
16

1. Events leading up to the crime

17

Hansen phoned her brother and they discussed killing MacNeil. They
agreed on a plan to hire a hit man to kill MacNeil.

18
19
20

On July 18,2007, the day before the crime], Gann purchased black clothing
: :rom a Goodwill store in Arizona and drove to San Diego. Gann parked his
truck on a street that was uphill from MacNeil’s residence. [Footnote
omitted]

21
22
23
24

III

25

III

26
27
28

2 Gann and his co-defendant, Brae Hansen, were tried jointly with separate juries and their
appeals were consolidated. The Court of Appeal opinion therefore included facts which were admitted
only against Hansen, primarily from Hansen’s confession, in which she also implicated Gann. This
Court has omitted those facts in the appellate court’s opinion which were not based on evidence
admitted against Gann.
ir Chambm MajoriCASES-Cann v Cateet al • l’cvl-1 18-JAH (HabeY.UcvlU S-R&R (pro scl.u-pd. 71714

-2-

12cvl418

ER 197

Case 3:12-cv-01418-JAH-BLM

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Document 28 Filed 07/17/14 PagelD.6288 Page 3 of 66

2. The murder of Timothy MacNeil
MacNeil, who had spent the previous night at his girlfriend’s
residence and then attended morning appointments, arrived at his residence
at 12:15 p.m. on July 19 to pick up~Hansen for their lunch. [According to
statements Hansen made to tne 911 dispatcher and law enforcement officers,
wlhen MacNeil arrived at the residence he called out his arrival to Hansen,
who responded that she was in the bathroom. As was his habit, MacNeil
went downstairs to check telephone messages in his home office. Before he
reached his office, MacNeil was confronted in the downstairs game room
by [an intruder], who was dressed completely in black and wearing a mask
that had only eye slits. Within minutes, Hansen walked downstairs, where
she saw [the intruder] pointing a gun at MacNeil. The disguised [intruder]
ordered Her at gunpoint to tie MacNeil’s hands with zip-ties. After Hansen
complied, [the intruder] tied her hands behind her back with zip-ties.
At one point, MacNeil asked to use the bathroom. [The intruder] cut
Hansen’s zip-ties and told her to pull down MacNeil’s pants. After Hansen
complied, [the intruder] retied Hansen’s hands with zip-ties, took her to the
laundry room area where he placed her facing the wall, and told her not to
turnaround. Hansen heard a struggle followed by a gunshot. The bullet
entered the right side of MacNeil ’s body, just above the hip bone, causing
him to fall down. The first gunshot was followed by three more: a shot that
hit MacNeil in the face; a shot that grazed MacNeil’s scalp, entered his
shoulder and lodged just above the elbow; and a shot to the back of
MacNeil’s head, which killed him instantly.
According to [Charles] Goodman, [who was Gann’s cellmate while
both were housed in the psychiatric ward of an Arizonal Jail], Gann related
that Hansen had contacted him after MacNeil told her that she would have
to move out of his house when she turned 18. Gann and Hansen decided to
“take care of’ MacNeil. They initially planned to hire a hit man to kill their
stepfather, but the hit man who Gann contacted failed to show up.
Goodman also testified that Gann purchased black clothing at a Goodwill
store before driving to San Diego. When Gann arrived at MacNeil’s house.
Hansen was there, and they discussed their plans. When MacNeil arrived
home, Gann put on a makeshift mask and acted like it was a robbery ”
Gann directed Hansen to tie up MacNeil; Gann then tied up Hansen.
However, MacNeil was not tied up well and he managed to get free. When
Gann went to tie MacNeil again, the gun accidentally fired, and the bullet
hit MacNeil. MacNeil said, Why are you killing me, Nathan?” and “Why
are you doing this to me, Nathan?” Gann then began to shoot at MacNeil.
After shooting MacNeil in the head, Gann fled the scene. Gann discarded
the gun and the black clothing after he left the house, and drove back to
Arizona.
Several neighbors told police that they saw a young man running
away from the MacNeil house. A witness saw the young man run to a truck
that was later identified as Gann’s, and drive away. Another witness
testified that he was 90 percent sure that it was Gann whom he had seen
fleeing.
After Gann left, Hansen, who was still bound, called 911 to report a
home-invasion robbery and the shooting of her stepfather. Hansen told the
911 operator that she and MacNeil had entered theliouse together and said
that they had been confronted downstairs by an armed masked man who was
li'Chambers Major CASES Gann v CalectaJ- 12cvl4IS-iAH (Hafccl,i:cvl4l6-R£R ipro SiVv^l 7[7!4

-3-

12cvl418

ER 198

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6289 Page 4 of 66

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

dressed entirely in black. Hansen said that the robber had taken her watch
and a ring. [Footnote omitted] Hansen told the operator that the robber had
demanded the combination to the house safe, and that MacNeil had refused
to reveal it. At that point, the robber shot MacNeil, killing him. Hansen
made the 911 call at 12:30 p.m.
When police arrived, they found MacNeil lying face down on the
floor in a pool of blood. He was naked from the waist down. [Footnote 6:
Police found MacNeil’s pants and boxer shorts in the bathroom.] Hansen
was cowering in a comer on the other side of a pool table. Hansen’s hands
were bound oehind her with a plastic zip-tie. Hansen was crying and
complained that her wrists hurt because the zip-tie was too tight. Officer
Colin Forsey took Hansen outside and removed the zip-tie.
Police found no signs of forced entry. On the back porch, police
discovered a .347 caliber revolver at the top of stairs that led to the
backyard. Police later found a black shirt in a live-foot-tall tree along the
masked man’s escape route. [Footnote 7: At the time police found the
black shirt, they did not realize that there was a dark blue ski mask or hat
with cut eye slits inside the black shirt. The mask was not discovered until
the shirt was examined in the crime lab. The mask was covered with debris
inside and out, but the shirt was not. No DNA was recovered from the shirt.
The first sample taken from the mask did not have sufficient DNA for
analysis. Subsequently more samples were taken, and it was determined
that DNA from the mask matched Gann’s DNA profile.]
While Hansen was sitting in an ambulance at the scene, she told
Officer Forsey that a masked man had surprised MacNeil in the downstairs
game room and bound his hands. The masked man also bound her hands
and took her ring and cell phone from her. The man then placed her in
another room, returned to MacNeil in the game room, and demanded the
combination to the safe. MacNeil refused to give the man the combination,
and a struggle ensued. The struggle ended with gunshots.
Detective Maria Rivera drove Hansen to the police station, where she
interviewed the 17-year-old who, at the time, police considered to be a
victim. Hansen told Rivera that she returned to the Marraco Drive residence
after taking an hour-long walk and went into the upstairs bathroom. Two
minutes later, MacNeil arrived. Assuming that MacNeil had gone
downstairs, Hansen did so as well. When Hansen got downstairs, she saw
a masked man, dressed entirely in black, pointing a gun at MacNeil, whose
hands were tied behind him with zip ties. MacNeil said that he had to go to
the bathroom, and the man pointed the gun at Hansen and told her to take
off MacNeil’s pants. The masked man then zip-tied Hansen’s hands and
took her ring, watch and cell phone. He pushed Hansen against the wall near
the laundry room. Hansen heard the man ask MacNeil for the combination
to the safe, which MacNeil refused to give. Hansen heard a struggle and a
gunshot. The man fired at least two more shots at MacNeil before running
out the back door.
After the interview, Rivera drove Hansen to the residence of Hansen’s
uncle and aunt, Richard and Bonnie MacNeil.

28

It'ChambcreMajorCASES Gann vCaweiil- !2cvl418-JAH(Habei.)2cvi4l8-R&R (prose).71714

-4-

12cvl418

ER 199

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6290 Page 5 of 66

Hansen told Richard and Bonnie MacNeil’s daughter (the daughter)
that a composite sketch of the intruder, which had been distributed by the
media, was inaccurate. The daughter became suspicious because Hansen
had previously maintained that she had not seen the intruder’s face. On her

1
2
3

own, the daughter telephoned the police and reported the discrepancy, After
receiving this information from the daughter, police returned to Ri chard
MacNeiPs residence and arrested Hansen at 10:45 p.m.

4
5
6

Gann was arrested early the following morning in Arizona.

7

Hansen rested without presenting evidence.

8

In Gann’s defense case, he presented evidence that gloves used by
MacNeil ’ s assailant were never found, and that Gann ’ s fingerprints were not
found on the gun. A police detective demonstrated how a right-handed
person typically would lay down the murder weapon. Another detective
identifiecf a pnotograph of Gann’s truck. A defense investigator
demonstrated that with a zip-tie binding her hands behind her back, she
could easily make the binding tighter by herself. Both juries heard this
evidence.

9
10
11
12
13

Hansen’s jury was not present for the testimony of the remainder of
Gann’s witnesses. These included seven character witnesses who testified
that Gann was a nonviolent person, that he had no animosity toward
MacNeil, and that he had been physically abused by his mother. Gann also
presented witnesses who testified that Hansen was frustrated by MacNeil,
resented MacNeil’s girlfriend, and had once considered poisoning her own
mother.

14
15
16
17

Inrebuttal, the prosecutionpresentedthe testimony of Gann’s former
girlfriend. In surrebuttal, Gann presented four witnesses to impeach the
former girlfriend.

18
19

21

The parties stipulated that, among other things, the gun that killed
MacNeil was once owned by Gann and Hansen’s mother, and that the gun
belonged to MacNeil at the time of his death. They also stipulated that
Gann is left-handed and that Hansen is right-handed.

22

(Peoplev. Gann, 193 Cal. App.4th994,999-1003,123 Cal.Rptr. 3d208,211-15 (2011);

23

see also Lodgment No. 13 at 3-11.)

20

24 III.

PROCEDURAL BACKGROUND

25

On January 28, 2008, the San Diego County District Attorney’s Office filed an

26

Information charging Gann with first degree murder (Cal. Penal Code § 187(a)), with

27

special circumstances (lying in wait) (Cal. Penal Code § 190.2(a)(15)). (Lodgment No

28

1, Clerk’s Tr., vol. 1 at 1-2.) It was also alleged in the information that Gann had
^'Chambers Major C
ASES'Gann v. Caieeial • UcvUiS-JAH (Habel\12cvMl8-R&R iprosel.wpd. 717)4

-5-

12cvl418

ER 200

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6291 Page 6 of 66

.

1

personally used a firearm (Cal. Penal Code § 12022.53(d) and (e)(1)). (Id. at 2.) Hansen

2

was also charged with murder with special circumstances, and vicarious use of a firearm

3

(Cal. Penal Code § 12022(a)(1)). (Id.)

4

Hansen and Gann moved to have their cases severed for trial. (See id. at 113-17.)

5

On October 9, 2008, the district attorney decided to try the cases separately, and the

6

severance motions were rendered moot. (See id. at 149.) On November 5,2008, Gann’s

7

first trial began. (See id., vol. 5 at 706.) It ended in a mistrial on November 20, 2008,

8

when the jury could not reach a unanimous verdict. (Id. at 743.)

9

On December 23, 2008, the trial court granted the district attorney’s motion to

10

rejoin the cases, which Gann and Hansen had both opposed. (See id., vol. 2 at 311-22;

11

id., vol. 5 at 1014-22; Lodgment No. 4. Aug. Rep. Tr., vol. 11 at 1037-46.) Gann and

12

Hansen were tried together, with separate juries. The trial began on March 23,2009. On

13

April 15, Gann’s jury found him guilty of murder in the first degree.3 (Lodgment No. 1,

14

vol. 1 at 438.) The jury found the special circumstance and the personal use of a fire-arm

15

allegations were not true. (Id.'at 438-440.) The trial court sentenced Gann to 25 years

16

to life in prison.

17

Gann appealed his conviction to the California Court of Appeal. (See Lodgment

18

No. 6.) On March 25, 2011, the appellate court affirmed his conviction in a reasoned

19

opinion, which was published in part. (See Lodgment No. 13; see also People v. Gann,

20

193 Cal. App.4th 994, 123 Cal. Rptr. 3d 208 (2011).) Gann then filed a petition for

21

review in the California Supreme Court. (Lodgment No. 16.) On July 11,2011, the court

22

denied the petition without comment or citation. (Lodgment No. 18.)

23

Gann filed the instant federal petition for writ of habeas corpus pursuant to 28

24

U.S.C. § 2254 in this Court on June 11, 2012. (ECF No. 1) Upon initial review of the

25

Petition, the Court notified Gann that it appeared to contain a claim which was not

26
27
28

Hansen’s jury found her guilty of first degree murder and found that she had been vicariously
armed. Hansen’s jury also found the lying in wait special circumstance to be true. The trial court
sentenced Hansen to life in prison without the possibility of parole. (See Lodgment No. 1 Clerk’s Tr
vol. 5 at 1198; id., vol. 6 at 1453-54.)
1:.Chambers Major CASES Gann v. Care eial - I2cvI41S-JAH iHabel.UcvHlS-R&R (ptosei u-pd. 71714

-6-

12cvl418

ER 201

*
Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6292 Page 7 of 66
U'

1

exhausted in state court. (ECF No. 2.) On July 12, 2014, Gann then filed a motion for

2

“stay and abeyance” of the Petition so that he could exhaust his unexhausted claim in

3

state court. (ECF No. 4.)

4

While his motion for stay was pending before this Court, Gann went back to state

5

court to exhaust his unexhausted claim. On July 16, 2012, Gann filed a petition for writ

6

of habeas corpus in the Superior Court of San Diego County. (Lodgment No. 19.) In his

7

petition, Gann raised the same claims as those raised in his direct appeal. Gann also

8

included one additional claim, which was not raised on direct appeal - that his due

9

process rights were violated when the trial court rejoined his case with Hansen’s. (See

10

id. at 13-14.) On August 3,2012, the trial court denied the petition. (Lodgment No. 20.)

11

On November 26, 2012, Gann filed a habeas petition in the California Court of

12

Appeal, in which he raised only one issue, that he was denied his right to a fair trial when

13

the trial court rejoined his case with Hansen’s. (Lodgment No. 21 at 3-4.) The appellate

14

court denied the petition in a reasoned decision on December 10,2012. (Lodgment No.

15

22.) Finally, Gann filed a petition for writ of habeas corpus with the California Supreme

16

Court, raising the same rejoinder claim. (Lodgment No. 23.) The court denied the

17

petition on March 13, 2013, citing People v. Duvall, 9 Cal. 4th 464, 474 (1995); In re

18

Dixon, 41 Cal. 2d 756, 759 (1953); In re Swain, 34 Cal. 2d 300, 304 (1949). (Lodgment

19

No. 24.)

20

On March 27, 2013, this Court denied Gann’s motion for stay and instructed him

21

to withdraw his unexhausted claim and seek a stay of the petition. (ECF No. 7.) On

22

March 29,2013, Petitioner filed a notice of exhaustion of state court remedies. (ECF No.

23

9.) This court then issued an order to respond on August 13, 2008. (ECF No. 10.)

24

Respondent filed an answer on November 5, 2013. (ECF No. 17.) Petitioner filed a

25

Traverse on December 5, 2013. (ECF No. 19.) On April 22, 2014, this Court ordered

26

Respondent to file supplemental lodgments under seal. The sealed lodgments were

27

submitted by the California Court of Appeal on May 9, 2014. (ECF No. 27.)

28

III

I: Chamber? MajoriCASESiGann v. Caieetal - UcvUIS-JAH (HabeTUcvKlS-R&R (pro seUpd. 71714

-7-

12cvl418

ER 202

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6293 Page 8 of 66

1

IV.

DISCUSSION

2

Gann raises seven claims in his Petition: (1) his Sixth Amendment rights were

3

violated by the admission of out-of-court statements made by Hansen; (2) the trial court

4

improperly allowed a former girlfriend of Gann’s to testify that he had raped her; (3) his

5

due process rights were violated by the cumulative impact of the evidentiary errors made

6

at trial; (4) his due process rights were violated by judicial bias; (5) the trial court denied

7

his right to effectively cross-examine a witness against him when it refused to disclose

8

the witness’s psychiatric records; (6) his due process rights were violated when the trial

9

court improperly instructed the jury; and (7) his due process rights were violated by the

10

rejoinder of his case with Hansen’s, after Gann’s first trial resulted in a mistrial. (See Pet.

11

at 6-13.) In his Traverse, Petitioner also requests an evidentiary hearing. (Traverse at 21.)

12

Respondent argues claim one fails to state a federal question, claim seven is

13

unexhausted, untimely and procedurally barred, and that the state court’s resolution as

14

to each of Petitioner’s claims was neither contrary to, nor an unreasonable application of,

15

clearly established Supreme Court law. (Answer at 17-43.)

16

A.

17

Rule 2(c) of the Rules Governing Section 2254 Cases provides that “[t]he petition

18

shall be typewritten or legibly handwritten and shall be signed under penalty of periurv

19

by the petitioner.” Rule 2(c), 28 U.S.C. foil. § 2254 (emphasis added). The form petition

20

Gann filed with the Court appears to be missing the final signature page. In his Traverse,

21

however, Gann states that he signed the original petition. He attached a copy of the

22

signature page to his Traverse, which is signed under penalty of perjury and dated June

23

5, 2012. (See Traverse at 7-8, 25.) The Court therefore finds the Petition is sufficiently

24

verified. See Hendricks v. Vasquez, 918 F.2d 490, 491 (9th Cir. 1990) (stating that a

25

district court need not dismiss a petition for failure to sign a petition and permitting the

26

petitioner to verify the petition on remand).

27

III

28

B.

Verification of Petition

Standard of Review

[.'■Chambers Major.CASES Gann v. Cate etai- UevUlMAH (HabelJUcvUlS-RiiR(prosel.wpd. 717U

-8-

12cvl418

ER203

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PageiD.6294 Page 9 of 66

1

Gann’s Petition is governed by the provisions of the Antiterrorism and Effective

2

Death Penalty Act of 1996 (“AEDPA”). See Lindh v. Murphy, 521 U.S. 320 (1997).

3

Under AEDPA, a habeas petition will not be granted with respect to any claim

4

adjudicated on the merits by the state court unless that adjudication: (1) resulted in a

5

decision that was contrary to, or involved an unreasonable application of clearly

6

established federal law; or (2) resulted in a decision that was based on an unreasonable

7

determination of the facts in light of the evidence presented at the state court proceeding.

8

28 U.S.C. § 2254(d); Early v. Packer, 537 U.S. 3,8 (2002). In deciding a state prisoner’s

9

habeas petition, a federal court is not called upon to decide whether it agrees with the

10

state court’s determination; rather, the court applies an extraordinarily deferential review,

11

inquiring only whether the state court’s decision was objectively unreasonable. . See

12

Yarborough v. Gentry, 540 U.S. 1,4 (2003); Medina v. Hornung^ 386 F.3d 872,877 (9th

13

Cir. 2004). In order to grant relief under § 2254(d)(2), a federal court “must be

14

convinced that an appellate panel, applying the normal standards of appellate review,

15

could not reasonably conclude that the finding is supported by the record.” See Taylor

16

v. Maddox, 366 F.3d 992, 1001 (9th Cir. 2004).

17

A federal habeas court may grant relief under the “contrary to” clause if the state

18

court applied a rule different from the governing law set forth in Supreme Court cases,

19

or if it decided a case differently than the Supreme Court on a set of materially

20

indistinguishable facts. See Bell v. Cone, 535 U.S. 685,694 (2002). The court may grant

21

relief under the “unreasonable application” clause if the state court correctly identified

22

the governing legal principle from Supreme Court decisions but unreasonably applied

23

those decisions to the facts of a particular case. Id. Additionally, the “unreasonable

24

application” clause requires that the state court decision be more than incorrect or

25

erroneous; to warrant habeas relief, the state court’s application of clearly established

26

federal law must be “objectively unreasonable.” See Lockyer v. Andrade, 538 U.S. 63,

27

75 (2003). “[A] federal habeas court may not issue the writ simply because that court

28

concludes in its independent judgment that the relevant state-court decision applied
I:'Chambere Major CASES'Gann v. Cate etal- tlcvlJtS-JAH (Habel’I’cvUia-R&R (pro seuvpi 71714

-9-

12cvl418

ER 204

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6295 Page 10 of 66

1

clearly established federal law erroneously or incorrectly. Rather, that application must

2

also be unreasonable.” Williams v. Taylor,' 529 U.S. 362, 411 (2000). “A state court’s

3

determination that a claim lacks merit precludes federal habeas relief so long as

4

‘fairminded jurists could disagree’ on the correctness of the state court’s decision.”

5 Harrington v. Richter, 562 U.S.- , 131 S.Ct. 770, 786 (2011) (quoting Yarborough v.
6 Alvarado, 541 U.S. 652, 664 (2004)).
7

Where there is no reasoned decision from the state’s highest court, the Court

8

“looks through” to the underlying appellate court decision and presumes it provides the

9 basis for the higher court’s denial of a claim or claims. See Ylst v. Nunnemaker, 501 U.S.
10

797, 805-06 (1991). If the dispositive state court order does not “furnish a basis for its

11

reasoning,” federal habeas courts must conduct an independent review of the record to

12 determine whether the state court’s decision is contrary to, or an unreasonable application
13

of, clearly established Supreme Court law. See Delgado v. Lewis, 223 F.3d 976,982 (9th

14 Cir. 2000) (overruled on other grounds by Andrade, 538 U.S. at 75-76); accord Himes
15

v. Thompson, 336 F.3d 848, 853 (9th Cir. 2003). However, a state court need not cite

16

Supreme Court precedent when resolving a habeas corpus claim. See Early, 537 U.S. at

17

8. “[S]o long as neither the reasoning nor the result of the state-court decision contradicts

18

[Supreme Court precedent,]” id., the state court decision will not be “contrary to” clearly

19

established federal law. Id. Clearly established federal law, for purposes of § 2254(d),

20 means “the governing principle or principles set forth by the Supreme Court at the time
21

the state court renders its decision.” Andrade, 538 U.S. at 72.

22

C.

23

In claim one, Gann argues his Sixth Amendment right to confrontation was

Hansen’s Statements

24 violated when the trial court admitted out-of-court statements made by Hansen, as
25

evidence against him. (Pet. at 6.) Specifically, he argues that Hansen’s 911 call and

26

statements made during prearrest interviews with police were inadmissible hearsay and

27 the admission of the statements violated his Sixth Amendment rights. {Id.)
28

1.

Cognizable Claim

l:\Chambers MsjorCASES Gann v. Cate eiaJ • I2cvl418-JAH (HabeW2cv|4]8-R&R (pro set.Hpd. 71714

-10-

12cvl418

ER 205

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6296 Page 11 of 66

1

First, Respondent argues this claim fails to present a federal question. To present

2

a federal habeas corpus claim under § 2254, a state prisoner must allege both that he is

3

in custody pursuant to a “judgment of a State court” and that he is in custody in “violation

4

of the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a). “In

5

conducting habeas review, a federal court is limited to deciding whether a conviction

6

violated the Constitution, laws, or treaties of the United States.” Estelle v. McGuire, 502

7

U.S. 62, 68 (1991). A state’s interpretation of its laws or rules provides no basis for

8

federal habeas corpus relief because no federal constitutional question arises. Id.

9

Here, Gann argues his Sixth Amendment right to confront witnesses was violated

10

when the trial court allowed Hansen’s statements to be admitted. The state appellate court

11

concluded that the statements were admissible under an exception to the hearsay rule for

12

statements made in furtherance of a conspiracy, pursuant to California Evidence Code §

13

1223. The state court also concluded there was no Confrontation Clause violation.

14

Petitioner cannot obtain habeas relief on the grounds that the California courts wrongly

15

found that the statements admitted at trial fit within California’s exception to the hearsay

16

rule for statements made in furtherance of a conspiracy. See Winzer v. Hall, 494 F.3d

17

1192,1198 (9th Cir. 2007); see also Estelle, 502 U.S. at 67-68 (1991). Where, however,

18

a Confrontation Clause violation is alleged, “federal courts can go beyond a state court’s

19

characterization and analyze whether a factual basis supports the state court’s decision.”

20

Winzer, 494 F.3d at 1198. Accordingly, Gann’s claim that his Sixth Amendment rights

21

were violated by admission of Hansen’s statements is cognizable on federal habeas.

22

2.

Merits

23

Gann raised this claim on direct appeal. Because the California Supreme Court

24

denied his petition without comment, this Court looks to the last reasoned state court

25

decision, that of the California Court of Appeal. Ylst, 501 U.S. at 803. In denying the

26

claim, the appellate court began by finding that Hansen’s statements fell within

27

California’s hearsay exception as statements made “in furtherance of a conspiracy.” The

28

l:'Chambers MajoriCASESiGinn v. Cale etaJ - l2cvl4IIWAH (Habel.lIcvUlS-R&R ipro sei xvpd, 71714

-11-

12cvl418

ER 206

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6297 Page 12 of 66

1

court then concluded that there was no Confrontation Clause violation because the

2

statements were non-testimonial. The court stated, in relevant part:

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Confrontation Clause of the Sixth Amendment to the United States
Constitution prohibits the admission of out-of-court “[tjestimonal statements
of witnesses absent from the trial [unless] the declarant is unavailable,” and
“only where the defendant has had a prior opportunity to cross-examine.”
(Crawford, supra, atp. 58,124S.Ct. 1354.) The Crawford court did not set
forth “a comprehensive definition” of what constitutes “testimonial
evidence,” but held that “[wjhatever else the term covers, it applies at a
minimum to prior testimony at a preliminary hearing, before a grand jury,
or at a former trial; and to police interrogations.” (Id. atp. 68, 124 S.Ct.
1354.) With respect to nontestimonial hearsay, Crawfordheld that where
the proffered statement is not testimonial, state law may regulate the
admission of evidence by applying statutory hearsay rules, without running
afoul of the Confrontation Clause. (Ibid.)
In Davis v. Washington (2006) 547 U.S. 813, 126 S.Ct. 2266, 165
L.Ed.2d 224 (Davis), the United States Supreme Court explained the
distinction between nontestimonial and testimonial statements made to law
enforcement officers during a 911 call or at a crime scene: “Statements are
nontestimonial when made in the course of police interrogation under
circumstances objectively indicating that the primary purpose of the
interrogation is to enable police assistance to meet an ongoing emergency.”
(Id. at p. 822, 126 S.Ct. 2266.) Statements are testimonial “when the
circumstances objectively indicate that there is no such ongoing emergency,
and that the primary purpose of the interrogation is to establish or prove past
events potentially relevant to later criminal prosecution.” (Ibid.)
In People v. Cage (2007) 40 Cal.4th 965, 56 Cal.Rptr.3d 789, 155
P.3d 205 (Cage), our Supreme Court identified several “basic principles” to
assist courts m determining whether a particular statement is or is not
testimonial. The court explained that although a testimonial statement need
not be made under oath, it must have some “formality and solemnity
characteristic of testimony” and “must have been given and taken primarily
... to establish orprove some past fact for possible use in a criminal trial/’
(Id. atp. 984,56 Cal.Rptr.3d 789,155 P.3d405, italics omitted.) However,
‘ statements elicited by law enforcement officials are not testimonial if the
primary purpose in giving and receiving them is to deal with a
contemporaneous emergency, rather than to produce evidence about past
events for possible use at a criminal trial.” (Ibid.) “[T]he primary purpose
for which a statement was given and taken is to be determined ‘ ohj ectively, ’
considering all the circumstances that might reasonably hear on the intent
of the participants in the conversation.” (Ibid.)
Using the analyses in Davis, supra, 547 U.S. 813, 126 S.Ct. 2266,
165 L.Ed.2a 224 and Cage, supra, 40 Cal.4th 965, 56 Cal.Rptr.3d 789,15^
P.3d 205 the Courts of Appeal in People v. Brenn (2007) 152 Cal.App.4th
166, 176, 60 Cal.Rptr.3d 530 (Brenn) and People v. Banos (2009) 178
Cal.App.4th 483, 492-493, 497, 100 Cal.Rptr.3d'476 (Banos) each found
that the victims’ respective statements to a 911 operator were not
testimonial. In Brenn, the court determined that the purpose and form of the
statements used in the 911 call were “not the functional equivalents of trial
I: Chambers Major CASES Gann v. Career al - UcvUIS-JAHlHabei I2e04lS-R&R (pro sei upd, 71714

-12-

12cv1418

ER207

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6298 Page 13 of 66

1
2
3
4
5
6
7
8
9
10
11

testimony.” (.Brenn, supra, at p. 176, 60 Cal.Rptr.3d 830.) In Banos, the
court concluded that the statements were not testimonial because the
primary purpose of the declarant was “togain police protection.” (Banos,
supra, at p. 497, 100 Cal.Rptr.3d 476.) The court noted, “The statements
were not yet the product of an interrogation, rather they were made to police
conducting an investigation into an ongoing emergency.” {Ibid.)
As these cases make clear a 911 call made during the course of an
emergency situation is ordinarily made for the primary nontestimonial
purpose of alerting the police about the situation ana to provide information
germane to dealing with the emergency. Applying the analysis of those
cases here, we conclude that Hansen’s statements to the 911 operator were
not testimonial under Crawford, supra, 541 U.S. 36, 124 S.Ct. 1354, 158
L.Ed.2d 177. The dispatcher was primarily concerned with what was
happening at the moment, in order to obtain information that would assist
responding officers in rendering aid to the victims and finding the escaping
perpetrator - not to secure a conviction in a court trial. The information
given was not formal or structured. Because the statements that Hansen
made to the 911 operator were not testimonial in nature, they were not
subject to the requirements of Crawford.

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Forsey was primarily concerned with determining what had happened and
whether Hansen had any information that could help police find the man
dressed in black, who officers believed might still be in the area. Officer
Forsey’s conversation with Hansen was not structured or formal. We
conclude that Hansen’s statements to Officer Forsey also were not
testimonial. {Banos, supra, 178 Cal.App.4th atp. 497,100 Cal.Rptr.3d476.)
However, the same analysis does not apply to statements that Hansen
made to Detective Rivera prior to Hansen’s arrest. Detective Rivera’s
interviews with Hansen were conducted under circumstances that were more
formal than the circumstances surrounding the 911 call and the on-the-scene
discussion with Officer Forsey. Rivera’s first interview with Hansen took
plage at the police station and was recorded. At the time of this interview
police viewed Hansen as a victim and were attempting to obtain additional
information to assist them in their investigation of MacNeil’s murder. The
second interview took place at Richard and Bonnie MacNeil’s residence.
While Rivera still viewed Hansen as a victim at the time she initiated her
conversation with Hansen, after Hansen referred to the intruder as “Nathan,”
Rivera apparently became suspicious of Hansen, and decided to tape-record
the rest of their discussion.
Because “[statements taken by police officers in the course of
interrogations are... testimonial under even a narrow standard” {Crawford,
supra, 541 U.S. atp. 52, 124 S.Ct. 1354), the statements that Hansen made
toDetective Rivera at the police station and at Richard MacNeil’s home are
“testimonial” under Crawford.
However, when Hansen made the statements, she was engaging in
conduct that was within the scope of the cpnspiracy, i.e., reinforcing the
notion that MacNeil had been killed during a home-invasion robbery
committed by a masked intruder dressed in black. The statements at issue
are thus coconspirator statements made during and in furtherance of the
conspiracy. The question that we must decide is whether the admission in
1: Chambers Major.CASES Gann v. Cate eial - 12cvl4l8-JAH iHabel i2cvl4IS-R4R(proseiwpd. 71714

-13-

12cvl418

ER 208

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6299 Page 14 of 66

evidence of the statements that Hansen made to Detective Rivera violated
Gann’s Sixth Amendment confrontation rights.

1

The case of United States v. Stewart (2d Cir. 2006) 433 F.3d 273
(Stewart), in which the court addressed the admissibility of statements that
were both in furtherance of a conspiracy and testimonial, is instructive. In
Stewart, the federal government initiated insider trading investigations of
suspicious sales of ImClone Systems, Inc., stock in December 2001. (Id. at
p. 280.) Concluding that the two codefendants had misled investigators
about their sales of large volumes of stock before the company announced
that it had been denied approval for a key pharmaceutical product, the
government indicted them for conspiracy to obstruct justice, to make false
statements, and to commit perjury. (Id. at pp. 280-281.) Following their
convictions at a joint trial, each codefendant challenged the admission of the
other’s prior statements to FBI and SEC investigators. (Id. at p. 290.)

3
4
5
6
7
8
9

While acknowledging that the codefendants’ statements, “having
been made during interviews with government officials in the course of an
investigation, do have characteristics of Crawford’s ‘core class of
“testimonial statements,”’ in the context of the crimes for which
[defendants were convicted,” the Stewart court also noted that “the
challenged statements are part and parcel of co-conspirators’ statements
made in the course of and in furtherance of [d] efendants conspiratorial plan
to mislead investigators.” (Stewart, supra, 433 F.3d at p. 291, citations
omitted, italics added.) Given that the conspiracy’s primary objective was
to obstruct the federal government’s investigation the Stewart court rejected
the codefendants’ claim that the admission of truthful portions of the
otherwise testimonial hearsay violated their confrontation rights. (Id. at pp.
291 -292.) The Stewart court reasoned that the “essence” ofthe conspiracy
to obstruct justice charge “necessarily contemplate [d] that the conspirators
would provide false information to government agencies during the course
of their investigation and during interrogations that would produce
testimonial statements of one or the other ofthem.” (Id. at p. 292.)

10
11
12
13
14
15
16
17

The Stewart court noted that a conspiracy to obstruct justice
necessarily involves the use of deception and misrepresentation because it
seeks to hide the commission of an already-completed substantive offense.
(Stewart, supra, 433 F.3d at p. 292.) In this regard, the Stewart court stated,

18
19
20

It defies logic, human experience and even imagination
to belieye that a conspirator bent on impeding an investigation
by providing false information to investigators would lace the
totality of that presentation with falsehoods on every subject
of inquiry. To do so would be to alert the investigators
immediately that the conspirator is not to be believed, and the
effort to obstruct would fail from the outset.”

21
22
23
24

III

25

The court continued,
26
27
28

“The truthful portions of statements in furtherance ofthe
conspiracy, albeit spoken in a testimonial setting, are intended
to make the false portions believable and the obstruction
effective. Thus, the truthful portions are offered, not for the
narrow purpose of proving merely the truth of those portions,
I: Chambers Major CASES'Gann v. Caiecial - IJol-HS-lAH (Habel 12cvl4lS-R&R (pro sei.upd. 71714

-14-

12cvl418

ER 209

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6300 Page 15 of 66

1
2
3
l:

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

but for the far more significant purpose of showing each
conspirator’s attempt to lend credence to the entire testimonial
presentation and thereby obstruct justice. It would be
unacce
. ptablv ironic to permit the truthfulness of a portion of
a testimonial presentation to provide a basis for keeping from
a jury a conspirator’s attempt to use that truthful portion to
obstruct law enforcement officers in their effort to learn the
complete truth.” (Stewart, supra, 433 F.3d. at pp. 292-293.)
The Stewart court concluded,
“For these reasons, we hold that when the object of a
conspiracy is to obstruct justice, mislead law enforcement
officers, or commit similar offenses by making false
statements to investigating officers, truthful statements made
to such officers designed to lend credence to the false
statements and hence advance the conspiracy are not rendered
inadmissible by the Confrontation Clause. A contrary reading
of the rule would result in obvious and unacceptable
impediments to prosecuting cases like this one, in which the
very object of the charged conspiracy is for the defendants to
mislead investigators by responding falsely to the
investigators’ questions in a structured setting, hilly aware that
their responses might be used in future judicial proceedings.
For these reasons, there was no error here in admitting the
testimonial statements of one Defendant against the other.”
(Stewart, supra, 433 F.3d at p. 293.)
While there was a charged conspiracy to obstruct justice in Stewart,
the Stewart court s comments apply with equal force to the present case in
which the uncharged conspiracy included a plan to mislead law enforcement
officers who were investigating MacNeil’s murder. Gann and Hansen’s
plan to make it appear that MacNeil was murdered by a masked intruder
during a home-invasion robbery was, in essence, a plan to obstruct justice
and all of Hansen’s prearrest statements to Detective Rivera - both truthful
and untruthful —were made in furtherance of the conspiracy.
As m Stewart, any truthful statements that Hansen made to Detective
Rivera prior to her arrest were “designed to lend credence to the false
statements and hence advance the conspiracy.” (Stewart, supra, 433 F.3d
at p 293.) For these reasons, we conclude that such statements were not
inadmissible under the Confrontation Clause.
[Footnote 10:] With respect to any false statements that Hansen made to
Detective Rivera, such statements clearly were not offered for their truth
and are thus not “testimonial.” Indeed, during Gann’s first trial, the
prosecutor responded to a hearsay objection to Hansen’s prearrest
statements by arguing that he was not offering Hansen’s statements “for the
truth of the matter asserted. In fact, I am going to argue that she’s lying
through the teeth the whole time.”
y °
(Lodgment No. 13 at 16-23.)

28

r Chanbers Major'CASES'Gsnn v. Ca:e« al - 12cv14l8-lAH (HabeU2cvl41$.R&R iprostl.upd. 71714

-15-

12cvl418

ER 210

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6301 Page 16 of 66

1

The Confrontation Clause requires that a defendant in a criminal prosecution

2

“enjoy the right ... to be confronted with the witnesses against him.” U.S. Const.

3

Amend. VI. It is clearly established that “[w]here testimonial evidence is at issue,... the

4

Sixth Amendment demands what the common law required: unavailability and a prior

5

opportunity for cross-examination.” Crawford v. Washington, 541 U.S. 36, 68 (2004).

6

Here, it is undisputed that Hansen was unavailable and there was no prior opportunity for

7

cross-examination. The question here is whether Hansen’s statements were “testimonial”

8

within the meaning of Crawford.

9

Although Crawford did not expressly define what constitutes “testimonial,” it

10

gave three examples of the “core class of ‘testimonial’ statements”: (1) ex parte in-court

11

testimony or its functional equivalent, such as affidavits, custodial examinations, prior

12

testimony that the defendant was unable to cross-examine, or similar pretrial statements

13

that declarants would reasonably expect to be used prosecutorially; (2) extrajudicial

14

statements contained in formalized testimonial materials, such as affidavits, depositions,

15

prior testimony, or confessions; and (3) “statements that were made under circumstances

16

which would lead an objective witness reasonably to believe that the statement would be

17

available for use at a later trial.” Crawford, 541 U.S. at 51-52.

18

Even where testimonial statements have been admitted in violation of the

19

Confrontation Clause, the error is subject to harmless error analysis. Ocampo v. Vail, 649

20

F.3d 1098, 1114 (9th Cir. 2011) (citing Brecht v. Abrahamson, 507 U.S. 619, 637

21

(1993)); see also Winzer, 494 F.3d at 1201. “If the error did not result in ‘actual

22

prejudice,’ the [federal habeas] writ should not issue.” Winzer, 494 F.3d at 1201 (quoting

23

Brecht, 507 U.S. at 638). “‘Actual prejudice’ is demonstrated if the error in question had

24

a ‘substantial and injurious effect or influence in determining the jury’s verdict.’” Id.

25

There are three statements at issue here: (1) Hansen’s statements made during the

26

911 call, in which she reported her stepfather had been shot by an unknown intruder; (2)

27

statements Hansen made to Officer Forsey at the scene, shortly after officers arrived; and

28

I: Chambers Major CASES\Gann v. Cate ci al- !2cvUI6-MH lHabe(.l2cvUI8.R&R i_pro sel.wpd. 717)4

-16-

12cvl418

ER 211

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6302 Page 17 of 66

1

(3) statements Hansen made when she was interviewed at the police station by Detective

2

Rivera later that day.4

3

a.

The 911 Call

4

In her 911 call, Hansen reported that her stepfather had been shot, and the killer

5

was a stranger who had entered the home. (Lodgment No. 1, vol. 4 at 771.) The assailant

6

had run out the back door after the shooting. {Id. at 772.) She stated that the intruder was

7

already inside when she and MacNeil entered the house and she and MacNeil

8

encountered him when they went downstairs. {Id. at 111.) Hansen gave the operator a

9

description of the shooter, stating he was dressed entirely in black clothing and wore a

10

mask and gloves. {Id. at 772-73, 778, 780-81.) She said the intruder had forced her to

11

zip-tie MacNeil’s hands, but when MacNeil said he had to use the restroom, the intruder

12

untied his hands. {Id. at 777, 780.) Hansen’s hands were also bound with a zip-tie. {Id.

13

at 774, 780.) The intruder asked MacNeil for the combination to the safe. When

14

MacNeil refused, there was a struggle and MacNeil was shot. The intruder took Hansen’s

15

watch and ring. {Id. at 776.)

16

In Davis, the Supreme Court elaborated on the circumstances under which

17

statements made during police questioning would be “testimonial” under Crawford.

18

Davis v. Washington, 547 U.S. 813 (2006). The Supreme Court held that statements are

19

“nontestimonial when made in the course of police interrogation under circumstances

20

objectively indicating that the primary purpose of the interrogation is to enable police

21

assistance to meet an ongoing emergency.” In contrast, statements are testimonial when

22

there is “no such ongoing emergency, and the purpose of the interrogation is to prove past

23

events potentially relevant to later criminal prosecution.” Id. at 822. Applying this

24

standard, the Davis Court held that statements made to a 911 emergency operator were

25

not testimonial. In reaching this conclusion the Court emphasized several facts. First,

26
27
28

4 The Court of Appeal opinion refers to a second interview of Hansen conducted by Rivera that
occurred later that evening at the home of Richard and Bonnie MacNeil. {See Lodgment No. 13 at 1920.) This interview, however, was not admitted against Gann. (Lodgment No. 2, Rep. Tr., vol. 11 at
^'Chambers Major.CASES.Gsim v. Caieei a!- )2c04lB-JAH (Habel.ncvUlg-R&a (prosel.upd 71714

-17-

12cvl418

ER 212

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6303 Page 18 of 66

1

the victim was “speaking about events as they were happening, rather than describing

2

past events.” Id. at 827. Second, because the assailant was still in the victim’s home

3

when the call began, a “reasonable listener would recognize that [she] was facing an

4

ongoing emergency.” Id. Next, the “elicited statements were necessary to resolve the

5

present emergency” and so that “dispatched officers might know whether they would be

6

encountering a violent felon.” Id. And finally, the victim’s answers were frantically

7

given in a manner that seemed informal and spontaneous, unlike the formal police

8

interrogation in Crawford, which took place at a police station. Id.

9

In contrast, in Hammon, the companion case to Davis, the Court found that there

10

was no emergency and therefore statements made were “testimonial.” In that case, police

11

responded to a domestic disturbance report and found the victim-witness alone on her

12

porch. Id. at 819. The victim told them nothing was wrong, and the defendant, who was

13

still at the scene, told officers that there had been an argument but “everything was fine

14

now.” Id. Officers took the victim to another room and questioned her about what had

15

happened. Id. After hearing the victim’s account, the officer gave the victim a “battery

16

affidavit” which she signed. Id. at 820 (internal quotations omitted). The Court

17

explained that there was “no emergency in progress,” as the perpetrator was with police

18

in another room, and the purpose of the questioning was not seeking to determine “what

19

is happening,” but rather “what happened.” Id. at 830. Therefore the statements were

20

testimonial.

21

Since Davis, the Court has further held that whether an emergency is ongoing often

22

depends on, the type of dispute and weapon involved as well as the threat to the victim,

23

law enforcement, and the public. Michigan v. Bryant, -U.S.-, 131 S.Ct. 1143,1162-63

24

(2011). The scope of an emergency is “a highly context-dependent inquiry.” Id. at 1158.

25

To determine the primary purpose of an interrogation, a court must “objectively evaluate

26

the circumstances in which the encounter [between police and the declarant] occurs and

27

the statements and actions of the parties.” Id. at 1156.

28

COiambers MajorCASES Gann v. Caiefial- I2cvl4l$-JAH lHabe) UcvHIS-R&R (prostVupd. 71714

-18-

12cvl418

ER 213

Case 3.T2-CV-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6304 Page 19 of 66

During her 911 call, Hansen reported that she had just been robbed by an unknown
2

intruder and her stepfather had been shot and killed. She was still bound by zip-ties

3

around her wrists and the assailant had just fled. Among other things, the dispatcher

t.

attempted to get a physical description of the suspect, the clothing he wore, whether he

5

had any tattoos, and what direction he might have gone after leaving the house.

6

(Lodgment No 1, Clerk’s Tr., vol. 2 at 455-59.) All of this indicates the operator’s

7

primary purpose was to gather information from Hansen in order to help dispatch the

8

police to the location and provide officers with information regarding the suspect who

9

had just shot and killed someone, and whose whereabouts were unknown. The situation

10

was fluid and, unlike the situation in Hammon, officers did not know that Hansen’s and

11

the community’s safety was assured because the assailant was armed and at large. See

12

Davis, 547 at 830. Although Hansen gave some statements which described past events,

13

the emergency was ongoing and the information was necessary to allow responding

14

officers to “assess the situation, threat to their own safety, and possible danger to the

15

potential victim and to the public.” See Bryant, 131 S.Ct. at 1166.

16

That Hansen’s subjective purpose in calling 911 may not have been to assist law

17

enforcement in apprehending her stepfather’s actual killer, but rather to cover up her own

18

involvement, does not alter the testimonial nature of the statements. In determining the

19

primary purpose of the statement, ‘“the relevant inquiry is not the subjective or actual

20

purpose of the individuals involved in a particular encounter, but rather the purpose that

21

reasonable participants would have had, as ascertained from the individuals’ statements

22

and actions and the circumstances in which the encounter occurred.” United States v.

23

Rojas-Pedroza, 716 F.3d 1253,1267 (9th Cir. 2013) (quotingBryant, 131 S.Ct. at 1156).

24

A reasonable person viewing the circumstances of Hansen’s 911 call would understand

25

the primary purpose was to get officers to respond to an ongoing emergency.

26

Accordingly, the state court’s conclusion that the 911 call was not testimonial was

27

neither contrary to, nor an unreasonable application of, clearly established law. See 28

28

U.S.C. § 2254(d); Williams v. Taylor, 529 U.S. 362, 407-08 (2000). If the statement is
l:<Onmbeti MajorCASES'Gann v. Cateetai- 12cv]4l8-JAH <Habe).12cvl418.R£R(pro«x»pd. 71714

-19-

12cvl418

ER 214

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6305 Page 20 of 66

1

not testimonial, its admission does not run afoul of the Sixth Amendment. Thus, the

2

Court RECOMMENDS this sub-claim be DENIED.
b.

3

Statements to Officer Forsey.

4

Officer Forsey testified about statements Hansen made to him shortly after law

5

enforcement arrived. Officer Forsey, along with Officer Davis and Sergeant Saunders,

6

was among the first officers to arrive at the scene. Upon entering the home and

7

encountering Hansen, Sergeant Saunders directed Officer Forsey to remove Hansen from

8

the scene while he and other officers searched and secured it. (See Lodgment No. 2, Rep.

9

Tr., vol. 6 at 276-77.) Forsey stated his primary concern was “removing her from the

10

property to get her to a place of safety.” (Id. at 308.) After cutting the zip-tie off

11

Hansen’s wrists, Forsey escorted Hansen out of the house. (Id. at 312-13.) He took her

12

to an ambulance, where she was checked for injury. While there, he took a statement

13

from Hansen. (Id. at 319, 325.) At trial, the prosecutor asked Officer Forsey about the

14

circumstances.

15

Q:

You took a statement from Miss Hansen, is that correct?

16

A:

Yes, I did.

17

Q:

18

A

19
20
21

And what was the point of taking the statement from her at that time?
Urn, we were trying to acquire more information on the
circumstances, urn regarding the death, and urn, basically obtain
suspect information, start the apprehension process of finding the
suspect or any witnesses or additional information related to the
crime.

(Id. at 317.)

22

Forsey began by asking Hansen some basic information, including her address and

23

home and cell telephone numbers. (Id. at 318-19.) He then asked her to explain what

24

happened in narrative form. (Id. at 319.) Hansen stated that she had arrived home from

25

a walk at about 12:15 pm. and her stepfather arrived home at the same time. (Id. at 320.)

26

After using the restroom, she went downstairs and saw her stepfather with his hands

27

bound behind his back. (Id. at 321.) A masked man dressed in all black approached her

28

and told her to turn around. He then tied her wrists together with a zip-tie. The intruder
UCIumheu MajorCASES'Cana v. Cote el a!- i:cv|4l8-JAH [HabeliUcvUlS-R&R (prose).wpd. 7171J

-20-

I2cvl418

ER 215

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6306 Page 21 of 66

1

took her ring, cell phone and watch. (Id. at 321.) He took her to the laundry room and

2

put her against the wall.

3

combination to the safe, and McNeil refusing. She heard a struggle and a gunshot. (Id.

4

at 322.) There was a pause and then two or possibly three more shots. (Id. at 323.) After

5

the last shot, Hansen said she heard the intruder leave out the back door and she came out

6

of the laundry room and called 911. (Id. at 323.) Hansen told Officer Forsey she had no

7

idea who the intruder was. (Id. at 324.) She gave Forsey a description of the assailant

8

as dressed in all black clothing, 5 foot 7 inches tall, and about 150 pounds. (Id.)

She then heard the man asking her stepfather for the

9

Forsey testified that he stayed with Hansen for 45 minutes to an hour before he

10

turned her over to a homicide detective. (Id. at 335.) After releasing Hansen to the

11

detective, Forsey met with Sergeant Saunders and the homicide team. Saunders briefed

12

the detectives on what the officers had found thus far, including Hansen’s statement.

13

Forsey stated that his only responsibility at the scene was to “take care of Miss Hansen

14

[and] get a statement.” (Id. at 326-27.)

15

The California Court of Appeal held that, like Hansen’s 911 call, the primary

16

purpose of the statement was to help officers respond to an “ongoing emergency.”5 The

17

Supreme Court in Bryant explained that there can be an “ongoing emergency” even after

18

the original threat to a victim has ceased to exist, so long as there is “a threat potentially

19

to the police and the public.” Bryant, 131 S.Ct. at 1164. In Bryant, police responded to

20

a dispatch that a man had been shot. They found the man mortally wounded in a gas

21

station parking lot. Id. at 1150. Upon arriving at the scene, officers asked the victim

22

“what had happened, who had shot him, and where the shooting had occurred.” Id. at

23

1163.

24

ambulance arrived. The Court held the statements were not testimonial, concluding that

25

the primary purpose of the interrogation was to enable police to meet the ongoing

The conversation with officers lasted 5 to 10 minutes and ended when an

26
27
28

Officer Forsey testified as to Hansen’s statements at Gann’s first trial, which ended in a
mistrial. In that trial, however, the court instructed the jury that the statements were not to be considered
for their truth. Rather, the statement was only to be considered to explain the subsequent conduct of
officers. (Lodgment No. 4, Aug. Rep. Tr., vol. 6 at 318.)
hChimtwrs Major CASES'Gann i-. Caret! il- 12cvNIS-JAH iHabcVUcvUlS-RiR (proseiwpd. 71714

-21-

12cvl418

ER 216

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6307 Page 22 of 66

1

emergency. The Court noted that at the time of the questioning, the armed shooter’s

2

motive and location were unknown and the victim was severely injured. Id. at 1165.

3

Likewise, in this case, when Forsey arrived at the scene, officers knew only that

4

MacNeil had been fatally shot and his assailant had fled. Like in Bryant, it was not clear

5

whether the suspect was still armed and in the vicinity, or whether he posed a threat to

6

the public or emergency personnel. That Hansen was uninjured and taken to a place of

7

relative safety does not necessarily render her statements testimonial. The Bryant Court

8

cautioned that “[a]n assessment of whether an emergency that threatens the police and

9

public is ongoing cannot narrowly focus on whether the threat solely to the first victim

10

has been neutralized because the threat to the first responders and public may continue.”

11

Id. at 1158. Moreover, the initial responders to the MacNeil residence were not

12

immediately aware that the intruder had dropped the gun as he fled the scene. Courts

13

should consider the type of weapon involved when evaluating the scope and duration of

14

the emergency. Id. The interview of Hansen was more formal and lasted longer than that

15

statements discussed in Bryant, and it did include questions about what happened in the

16

past. However, under AEDPA’s highly deferential standard, this Court does not find that

17

the state court’s conclusion that the statements were non-testimonial was an objectively

18

unreasonable application of Supreme Court law. See Andrade, 538 U.S. at 75. “[A]

19

federal habeas court may not issue the writ simply because that court concludes in its

20

independent judgment that the relevant state-court decision applied clearly established

21

federal law erroneously or incorrectly.

22

unreasonable.” Williams, 529 U.S. at 411. While this presents a closer question than the

23

911 call, the state court’s conclusion was not unreasonable.

Rather, that application must also be

24

Even if the statements to Officer Forsey were improperly admitted, such error

25

would be harmless given the other evidence presented against Gann. See Brecht, 507

26

U.S. at 638.

27

Brecht test without regard for the state court’s harmlessness determination.” Pulido v.

28

Chromes, 629 F.3d 1007, 1012 (9th Cir. 2010). Harmless error review under Brecht is

A federal court sitting in habeas review must independently “apply the

[•'.Chambers Major'CASES Gsnm-. Caieeiu!- UcvUlS-MH (HabeV UcvUIS-RiR (pro seUpd. 71714

-22-

12cvl418

ER 217

Case 3.-12-CV-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6308 Page 23 of 66

1

“more forgiving to state court errors” on federal habeas review than the harmless error

2

standard used on direct appeal. Larson v. Palmateer, 515 F.3d 1057, 1064 (9th Cir.

3

2008) (quotation omitted).

4

The statements to Officer Forsey were mostly repetitive of Hansen’s statements

5

during the 911 call, which were properly admitted, as discussed above.

6

importantly, there was sufficient evidence to support Gann’s conviction without either

7

of the statements. First, Charles Goodman testified that Gann admitted killing MacNeil.

8

(Lodgment No. 2, vol. 12 at 928.) Goodman stated Gann told him Hansen had contacted

9

Gann to discuss her frustration with MacNeil and the fact that she would need to move

10

out of the house when she turned 18. (Id. at 929.) The two agreed that they needed to

11

get rid of MacNeil. Initially, Gann was supposed to find a hitman but when that plan fell

12

through, Gann decided to do the job himself. (Id.) Gann told Goodman he purchased

13

dark clothing at a local Goodwill store. (Id. at 929, 944.) He then drove to San Diego,

14

met with Hansen and the two discussed their plan to murder MacNeil. (Id. at 930.)

More

15

When MacNeil arrived home, Gann accosted him. (Id.) Gann had cut eye holes

16

in a hat belonging to Hansen and, armed with MacNeil’s gun, faked a robbery. (Id.) He

17

had Hansen tie MacNeil’s hands and then he tied up Hansen. (Id.) Eventually, Gann shot

18

and killed MacNeil. After the murder, Gann ran out of the house, fled up the stairs in the

19

neighborhood to reach the street where he had parked his truck. (Id. at 932.) He tossed

20

his black shirt and mask up into a tree along the way up the stairs, and then drove home

21

to Arizona. (Id. at 930-32, 943.)

22

Goodman’s account was corroborated by physical evidence. Receipts and a credit

23

card transaction statement showed that Gann had purchased clothing from Goodwill the

24

day before the murder. (Id. at 1054; id. vol. 13 at 1150-51.) Police found Gann’s black

25

sweatshirt and mask in the tree near the neighborhood staircase. (Id., vol. 7 at 526; vol.

26

8 at 572-74, 578, 580.) Gann’s DNA was found on the inside of the mask. (Id., vol. 8

27

at 741-42.) Two of Gann’s friend’s testified that Gann discussed driving to San Diego

28

around the time of the murder. (Id. vol. 8 at 672-74,692-94.) A neighbor reported seeing
I: Chambers MajorCASES Oann v. Caie eiaJ - Ucvl-ilS-JAH iHateWTcvUlS-R&R (pro sej.wpd. 7171-1

-23-

12cvl418

ER 218

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6309 Page 24 of 66

1

Gann’s truck parked on the street above the MacNeil residence. (Id., vol. 7 at 481-83.)

2

He saw a man matching Gann’s description get into the truck at about 12:30 p.m. on the

3

day of the shooting. (Id. at 482.) Another neighbor saw a man dressed in black and

L.

matching Gann’s description running from the MacNeil house and up the stairs. He

5

stated that he was “pretty confident” Gann was the person he saw running from the

6

MacNeil house and up the stairs. (Id. at 449-450,453,470-71.) Given the other evidence

7

presented against him a trial, Gann has not shown the admission of the statements to

8

Officer Forsey had a substantial injurious effect on the jury’s verdict. See Brecht, 507

9

U.S. at 638.

10

The Court therefore finds the state court’s decision that Officer Forsey1’s statements

11

were non-testimonial and thus admissible under the Confrontation Clause was neither

12

contrary to, nor an unreasonable application of clearly established law. See 28 U.S.C. §

13

2254(d); Williams, 529 U.S. at 407-08.

15

The Court RECOMMENDS this sub-claim be DENIED.

Furthermore, even assuming error, it was
14 harmless in light of the other evidence against Petitioner. See Brecht, 507 U.S. at 638.
16

c.

Statements to Detective Rivera

17

Detective Rivera arrived at the scene approximately an hour to an hour and a half

18

after the shooting. (LodgmentNo.2,Rep.Tr.,vol. 7at530.) After attending the briefing

19

provided to homicide by Sergeant Saunders, she was assigned to transport Hansen to the

20

police department and interview her about what had happened. (Id. at 531-32.) Once at

21

the station, Rivera interviewed Hansen. The interview was recorded on audio and video

22

tape. (Id. at 538.) Rivera testified that Hansen provided background on her relationship

23

with her stepfather. She described the events of that day. Initially, her account of the

24

shooting was consistent with statements she gave the 911 dispatcher and Officer Forsey.

25

Toward the end of the interview, Detective Rivera noted “there were a couple

26

problems.” (LodgmentNo. 1, Clerk’s Tr., vol. 2 at 509.) For instance, Rivera questioned

27

how the intruder had gotten into the house when Hansen stated that the doors were locked

28

and there was no sign of forced entry. (Id. at 500-01, 509.) Moreover, she questioned
^Chambers MajcrCASES’Ginn v. Caieet al- UcvHlS-MH iHabe).UcvI4lS-R&Ripro sel.upi 71714

-24-

12cvl418

ER 219

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6310 Page 25 of 66

1

how the intruder knew there was a safe in the house. {Id. at 501,509.) Rivera suggested

2

that it seemed like it was someone who knew Hansen or her father. When Rivera stated

3

there was a possibility it was a friend of Hansen’s Hansen replied that it was unlikely

4

because she believed the assailant was in his early 30s. Rivera asked how she could

5

know this when his body and face were completely covered, and he disguised his voice

6

like a cartoon character. {Id. at 510.) Hansen replied it was based on his body language

7

and the fact that she was “good at guessing how old people are.” {Id. at 510-11.) At the

8

completion of the interview, however, Rivera still considered Hansen a witness.

9

(Lodgment No. 2, Rep. Tr., vol. 7 at 551-66.)

11

Testimonial
Cl)
As discussed above, statements knowingly given to interrogating police officers

12

in response to structured police questioning qualify as “testimonial” “under any

13

conceivable definition.” Crawford, 541 U.S. at 52-53 & n. 4. Here, Hansen was

14

questioned by Detective Rivera at the police station, in an interview room, for over two

15

hours. (Lodgment No. 2, Rep. Tr, vol. 7 at 551-38, 551-33.) The interview included

16

background on Hansen’s stepfather and family, and extensive, detailed questioning on

17

the events leading up to the shooting. Rivera questioned Hansen on possible suspects and

18

motives. {See Lodgment No. 1, Clerk’s Tr., vol. 2 at 465-515.) Audio and video

19

recordings were made of the interview. (Lodgment No. 2, Rep. Tr., vol. 7 at 551-11.)

20

Under these circumstances, any “objective witness would reasonably believe [such a]

21

statement would be available for use at a later trial.” See Crawford, 541 U.S. at 51-52.

22

Thus, Hansen’s statement to Rivera was “testimonial” under even the most narrow

23

reading of Crawford. Id.

10

24

The appellate court reasonably came to the same conclusion, finding that the

25

statements were “testimonial” under Crawford. The court determined, however, that the

26

statements were made in “furtherance of a conspiracy,” and therefore their admission did

27
28

6 Due to a problem with the pagination of volume 7 of the Reporter’s Transcript, page 550 is
followed by pages 551-1 through 551-109. {See Lodgment No. 2, Rep. Tr., vol. 7.)
ti'Chambers Major CASESiGsnn v. Caiesial- 12cvUIS-MH (HabeV.12cvI41&.R&R i,pro wi-upd. 71714

-25-

12cvl418

ER 220

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6311 Page 26 of 66

1

not violate the Confrontation Clause because the Crawford Court itself acknowledged

2

that statements made in furtherance of a conspiracy are non-testimonial in nature.

3

Crawford, 541 U.S. at 56. Gann’s argument is twofold. First, he contends that Hansen’s

4

statements were not in furtherance of a conspiracy because at the time they were made,

5

the object of the conspiracy (MacNeil’s murder) was complete. Second, he claims that

6

even if the statements were made in furtherance of a conspiracy, they were also

7

testimonial under Crawford and therefore inadmissible. (See generally, Pet. at 6;

8

Traverse at 8-9.)
(ii)

9

In Furtherance of a Conspiracy

10

The state court concluded that under California hearsay law, Hansen’s statements

11

were made in furtherance of a conspiracy. The conspiracy, the court found, was not

12

simply a conspiracy to commit murder, but a conspiracy to murder and “make the murder

13

appear to have taken place during a home invasion robbery.” (Lodgment No. 13 at 15.)

14

The court stated:

15
16
17
18
19
20

21

A conspiracy is an agreement between two or more persons, with
specific intent, to achieve an unlawful objective, coupled with an overt act
by one of the conspirators to further the conspiracy. (People v. Olivencia
(1988) 204 Cal.App.3d 1391, 1402, 251 Cal Rptr; 880.) The conspiracy
itself need not be charged in order for Evidence Code section 1223’s hearsay
exception to apply to statements by coconspirators. (See People v. Jourdain
(1980) 111 Oa.App.3d 396, 404, 168 Cal.Rptr. 702; People v. Wallace
(1970) 13 Cal.App.3d608,617-618,91 Cal.Rptr. 643.) Further, only prima
facie evidence of a conspiracy is required to permit the trial court to admit
evidence under Evidence Code section 1223; the conspiracy may be shown
by circumstantial evidence and the agreement may be inferred from the
conduct of the defendants mutually carrying out a common
m
viomuon^a^nai statute. {FeojjLe v. jtierrera^zuup) 83^CaLAp|).4th 46,

22
23
24
25
26
27
28

While a conspiracy is usually deemed to have ended when the
substantive crime for which the coconspirators are being tried is either
attained or defeated (Leach, supra, 15 Cal.3d at p. 431, 124 Cal.Rptr. 752,
541 P.2d 296), it is for the trial court to determine precisely when the
conspiracy has ended. (Id. at p.432,124 Cal.Rptr. 752,541 P.2d296.) ‘“A
conspiracy is not necessarily a single event which unalterably takes place at
a particular point in time when the participants reach a formal agreement;
it may be flexible, occurring over a period of time and changing in response
to changed circumstances.’ [Citation.]” (People v. Vargas (2001) 91
Cal.App.4th 506, 553, 110 Cal.Rptr.2d 210.) Further, there may be “a
situation where a conspiracy will be deemed to have extended beyond the
substantive crime to activities contemplated and undertaken by the
1: Chambers MajerCASES.Gaitn v.Cateeial. I2cv141S-JAH (Habel'iUcvUlS-R&RiproseMvpd 71714

-26-

12cvl418

ER 221

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6312 Page 27 of 66

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

conspirators in pursuance of the objectives of the conspiracy.” (People v.
Sating (1972) TCal.3d 844, 852, 103 Cal.Rptr. 698, 500 P.2d 610.)
Gann argues that Hansen’s prearrest statements to the police do not
qualify under Evidence Code section 1223 because they were made after
MacNeil’s murder, which, he claims, terminated the conspiracy. Gann
maintains that since the conspiracy had ended, Hansen’s prearrest
statements could not have been made in furtherance of the conspiracy;
rather, they were mere acts to avoid detection. However, the trial court
found that the scope of Gann and Hansen’s conspiracy included the murder
of their stepfather, as well as making the murder appear to have taken place
during a home-invasion robbery.
“[WJhether statements made are in furtherance of a conspiracy
depends on an analysis of the totality of the facts and circumstances in the
case.” {Hardy, supra, 2 Cal.4th atj>. 146,5 Cal.Rptr.2d 796, 825 P.2d 781.)
In Hardy, the main objective or the conspiracy was to acquire the life
insurance benefits of the insured individuals, who were murdered in
furtherance of the conspiracy. (Id. at p. 143, 5 Cal.Rptr.2d 796, 825 P.2d
781.) Our Supreme Court held that the conspiracy aid not end with the
murders, but continued until the conspirators received the insurance
proceeds, or until the policy beneficiary was convicted of unjustifiable
homicide and rendered ineligible to collect. {Id. at p. 144, 5 Cal.Rptr.2d
796. 825 P.2d 781.) The court concluded that coconspirator statements
made during this lengthy period of the conspiracy were therefore admissible
under Evidence Code section 1223. {Hardy, supra, atp. 144, 5 Cal.Rptr.2d
796,825P.2d781.)
F
The evidence supports the trial court’s determination that the scope
of the Gann-Hansen conspiracy encompassed both the murder of their
stepfather and making it appear that the murder took place during a
home-invasion robbery. Making it look like the murder occurred during a
home-invasion robbery was integral to the conspiracy. To this end, Gann
and Hansen made it appear that Hansen was a victim of the staged
home-invasion by binding her hands with zip-ties. In addition, Hansen hid
her ring and watch beforehand so that she could claim that the intruder had
taken them. After Gann left the residence, Hansen related to the 911
operator that a masked intruder had confronted her and MacNeil at gunpcoint
and had killed MacNeil. Hansen told both the 911 operator ana Offi cer
Forsey that the intruder, whom she said she did not know, and who she said
had worn a mask and was dressed in black, had tied her hands with zip-ties
and taken her jewelry. Hansen recited essentially the same scenario to
Detective Rivera. Hansen’s 911 call and her prearrest statements to the
police officers were integral to creating the false impression that MacNeil
was killed during a home-invasion robbery. The evidence thus frilly
supports the trial court’s conclusion that the statements were made during
and in furtherance of the conspiracy.
(Lodgment No. 13 at 14-16.)

26

The United States Supreme Court has disapproved of extending completed

27

conspiracies by finding implicit agreements to conceal the crime. United States v.

28

Krulewitch, 336 U.S. 440, 443-44 (1949). The Court has held that the duration of a
^'Chambers MajorCASES'.Osnn v. Caieftal • 12cvHl$-JAH (Hatel.l’cvUlS-R&Ripro seiwpi 71714

-27-

12cvl418

ER 222

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6313 Page 28 of 66

1 conspiracy cannot by extended simply because conspirators “take steps to bury their
2

traces, in order to avoid detection and punishment after the central criminal purpose has

3

been accomplished.” United States v. Grunewald, 353 U.S. 391, 405 (1957).

4

conspiracy to conceal cannot be implied from circumstantial evidence supporting the

5

existence of an agreed-upon coverup after the central purpose of the conspiracy has been

“A

6 attained.” United States v. Xu, 706 F.3d 965,990 (9th Cir. 2013) (citing Grunewald, 353
7

8

at 401-02).
The Supreme Court has noted, however that “a vital distinction must be made

9 between acts of concealment done in furtherance of the main criminal objectives of the
10 conspiracy, and acts of concealment done after these central objectives have been
11

attained, for the purpose only of covering up after the crime.” Grunewald, 353 U.S. at

12 404. In Grunewald, the Court concluded that “[tjhere [was] not a shred of direct
13

evidence in this record to show anything like an express original agreement among the

14 conspirators to continue to act in concert in order to cover up, for their own
15
16

self-protection, traces of the crime after its commission.” Id.
Here the state court found Hansen’s statement to Detective Rivera was part of the

17 main objective of the conspiracy because she and Gann had agreed to make the murder
18 appear as if it took place during a home invasion robbery. Respondent argues the
19 determination was based on factual findings which are presumed correct. (See Answer
20 at 19.) While it is true state court rulings on the admissibility of evidence “generally fall
21

outside the scope of federal habeas,” as discussed above, when a petitioner alleges a

22 Confrontation Clause violation, federal courts “can go beyond a state court’s
23

characterization and analyze whether a factual basis supports the state court’s decision.”

24 See Winzer, 494 F.3d at 1198. Although the court in Winzer was applying pre-Crawford
25 law, the rationale is the same.
26

As an initial matter, this Court notes that the appellate court relied, in part, on the

27 evidence that Hansen hid her ring and watch before the shooting, as independent evidence
28 of the conspiracy to stage a robbery. This evidence was not presented to Gann’s jury.

Il'Chambers MajorCASHSlGann v. Caieet al- UcvHtS-JAHfHoheV.lIcvMiS-R&R (proseVupd. 71714

-28-

12cvl418

ER 223

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6314 Page 29 of 66

1

(See Lodgment No. 2, Rep. Tr., vol. 15 at 1248,1278; vol. 16 at 1296,1327-28; see also

2

Lodgment No. 1, Clerk’s Tr., vol. 3 at 569, 571; Lodgment No. 2, Rep. Tr., vol. 11 at

3

891,902.) “Where the state courts plainly misapprehend or misstate the record in making

4

their findings, and the misapprehension goes to a material factual issue that is central to

5

petitioner’s claim, that misapprehension can fatally undermine the fact-finding process,

6

rendering the resulting factual finding unreasonable.” Taylor v. Maddox, 366 F.3d 992,

7

1001 (9th Cir. 2004); see also 28 U.S.C. § 2254(d)(2). In this case, however, the state

8

court’s misapprehension does not “fatally undermine” the process,

9

independent evidence discussed by the appellate court suggested the existence of an

10

agreement to stage the murder to appear as if it occurred during a robbery.7 Hansen’s

11

hands were bound with a zip-tie. (Lodgment No. 2, Rep. Tr. vol. 6 at 312-13; see also

12

id., vol. 12 at 930.) And Goodman testified that Gann told him he cut holes in a mask,

13

and had Hansen zip-tie MacNeil’s hands so they could make the murder look it look like

14

it happened during a robbery. (Id., vol. 12 at 931.) Thus, in light of the other evidence

15

in the record, the state court’s decision does not amount to an unreasonable determination

16

of the facts sufficient to warrant habeas relief under § 2254(d)(2). See Taylor, 366 F.3d

17

at 1000 (stating that a federal court “must be convinced that an appellate panel, applying

18

the normal standards of appellate review, could not reasonably conclude that the finding

19

is supported by the record”).

Additional

20

In addition, the jury was instructed that it could not consider Hansen’s statements

21

unless it concluded by a preponderance of evidence “other evidence other than the

22
23
24
25
26
27
28

7 The state appellate court also relied heavily on Hansen’s challenged statements to the 911
dispatcher and the two law enforcement officers as evidence of the conspiracy. (Lodgment No. 13 at
16.) Under California law, the existence of the conspiracy must be established by “evidence
independent of the proffered declaration.” People v. Herrera, 83 Cal. App. 4th 46, 65 (2000) (citing
People v. Leach, 15 Cal.3d 419, 430 (1975); People v. Hardy, 2 Cal.4th 86, 144 (1992)). Although it
may have been error under state law, a state court’s evidentiary ruling is not subject to federal habeas
review unless the ruling violates federal law, either by infringing upon a specific federal constitutional
or statutory provision or by depriving the defendant of the fundamentally fair trial guaranteed by due
process. Pulley v. Harris, 465 U.S. 37,41 (1984) Moreover, the United States Supreme Court has held
that the challenged statements may be considered in determining whether there is sufficient evidence
of a conspiracy. Bourjaily v. United States, 483 U.S. 171, 181 (1987) (“[A] court, in making a
preliminary factual determination under [the coconspirator hearsay exception], may examine the hearsay
statements sought to be admitted.”)
1: Chambers MajonCASES'Oann v. Care ct aJ- I2cv141S-JAH (Mabel.Itc'UIS-RiR (prosetwpi 71714

-29-

12cvl418

ER 224

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6315 Page 30 of 66

1

statement itself’ that a conspiracy to commit a crime existed, and the statement was made

2

before or during the time that the defendants were participating in a conspiracy.

3

(Lodgment No. 1, Clerk’s Tr., vol. 2 at 412.) A jury is presumed to follow its

4

instructions. Weeks v. Angelone, 528 U.S. 225, 234 (2000).

5

“Where there is evidence that the conspirators originally agreed to take certain

6

steps after the principal objective of the conspiracy was reached, or evidence from which

7

such an agreement may reasonably be inferred, the conspiracy may be found to continue.”

8

United States v. Walker, 653 F.2d 1343, 1350 (9th Cir. 1981); see also United States v.

9

Masters, 924 F.2d 1362, 1368-69 (7th Cir. 1991). While the evidence that Hansen and

10

Gann had an “express original agreement” to stage the crime to appear as a home

11

invasion robbery was not exceptionally strong, there was some evidence that such a

12

conspiracy was agreed upon before the crime. The Court therefore finds the state court’s

13

conclusion that the statements were made in the furtherance of a conspiracy for purposes

14

of the Confrontation Clause, was not objectively unreasonable, under AEDPA’s highly

15

deferential standard for evaluating state-court rulings. See Richter, 131 S.Ct. at 786

16

(“[S]o long as ‘fairminded jurists could disagree’ on the correctness of the state court’s

17

decision,” habeas relief is precluded by Section 2254(d)).

18

(Hi)

Testimonial and In Furtherance of a Conspiracy

19

Gann argues that even assuming the statements were made in the furtherance of a

20

conspiracy, they are inadmissible under Crawford because they are “testimonial.” In

21

Crawford, the Supreme Court noted that generally statements made in furtherance of a

22

conspiracy are “by their nature not testimonial.” Crawford, 541 U.S. at 56. Indeed,

23

statements from one co-conspirator to another are not testimonial because there is no

24

reason to believe they will be used for prosecutorial purpose. See United States v.

25

Larson, 460 F.3d 1200,1213 (9th Cir. 2006) (holding that Crawford at least suggests that

26

the determinative factor in determining whether a declarant bears testimony is the

27

declarant’s awareness or expectation that his or her statements may later be used at a

28

trial”); United States v. Allen, 425 F.3d 1231, 1235 (9th Cir. 2005).
li’Chambtre MajonC.ASES'.Gann v. Caieeial. 12cvI4IS-JAH (HaSM.i^:vNI6-RJiRiprost).«pi 71714

-30-

12cvl418

ER 225

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6316 Page 31 of 66

1

Likewise, statements made by a coconspirator to a government informant or even

2

an undercover law enforcement made in furtherance of a conspiracy are not testimonial

3

because the declarant is not making the statements with an expectation that the statements

4

may later be used at trial. See United States v. Mooneyham, 473 F.3d 280, 286-87 (6th

5

Cir. 2007) (stating that co-defendant’s out-of-court statements to an undercover officer

6

whose status was unknown to the declarant were nontestimonial); United States v.

7

Watson, 525 F.3d 583, 589 (7th Cir. 2008) (“[A] statement unwittingly made to a

8

confidential informant and recorded by the government is not ‘testimonial’ for

9

Confrontation Clause purposes.” United States v. Smalls, 605 F.3d 765,778-80 (10th Cir.

10

2010) (statement to prison informant who was wearing a recording device); United States

11

v. Johnson, 581 F.3d 320,323-25 (6th Cir. 2009) (statement to prison informant wearing

12

a recording device); United States v. Underwood, 446 F.3d 1340, 1346-48 (11th Cir.

13

2006) (recorded statements to confidential informant); United States v. Hendricks, 395

14

F.3d 173, 182 n. 9, 184 (3rd Cir. 2005) (statement made to a confidential informant that

15

is recorded by the government).

16

This case, however, is different because Hansen’s statements to Detective Rivera

17

were “testimonial” under Crawford’s definition.

This is “not the run-of-the-mill

18

co-conspirator’s statement made unwittingly to a.confidential government informant, or

19

made casually to a partner-in-crime; rather, we have a co-conspirator’s statement that is

20

derived from a formalized testimonial source.” United States v. Holmes, 406 F.3d 337,

21

348-49 (5th Cir. 2005). Under most circumstances, when a co-conspirator gives a formal

22

statement to law enforcement which is “testimonial,” it is nonetheless admissible because

23

it is not offered for its truth. See id. (concluding testimonial statements also made in

24

furtherance of a conspiracy were admissible because they were not offered for their truth)

25

(citing Crawford, 541 U.S. at 60 n. 9 (“The [Confrontation] Clause . . . does not bar the

26

use of testimonial statements for purposes other than establishing the truth of the matter

27

asserted.”); see also United States v. Jimenez, 419 F.3d 34, 44 (1st Cir. 2005) (finding

28

I'Cha-nttr? Major CASHS Gmn v. Caie et a! • UevMlS-JAH (HibeV02cvl-il$-Ri:R tprofej.'xpd. 71714

-31-

12cvl418 '

ER 226

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6317 Page 32 of 66

1

Crawford inapplicable because “challenged statements were properly admissible, not for

2

their truth, but to provide context”).

3

In this case, however, Hansen’s statement arguably contained both truthful and

4

untruthful statements. And while the prosecutor argued that Hansen had lied to law

5

enforcement, several facts contained in her statement were used to support the argument

6

that Gann was the “intruder” described by Hansen in her statements. For instance,

7

Detective Rivera specifically testified that Hansen’s.statements that the intruder wore all

8

black and that he had escaped out the back door and up the stairs, were true. (Lodgment

9

No. 2, vol. 7 at 551-35.) Indeed, the trial court denied defense counsel’s request that the

10 jury be instructed the statements were not offered for their truth {id. at 551-44-45), and
11

instructed the jury that if it found there was a conspiracy, it could consider Hansen’s

12

statements as evidence of Gann’s guilt. (Lodgment No. 1, Clerk’s Tr. at 411-12.)

13

The state appellate court found that this case was similar to Stewart. In that case,

14

Stewart and her co-defendant, Bacanovic, were charged with conspiring to obstruct

15 justice, make false statements and commit peijury, stemming from an insider trading
16

investigation. United States v. Stewart, 433 F.3d 273,280 (2d Cir. 2006). Both Stewart

17

and Bacanovic gave statements to FBI and SEC agents that were admitted against the

18

other at trial as evidence that they conspired to obstruct justice by misleading government

19

investigators.

20

statements. The appellants argued that the truthful portions of their statements were

21

inadmissible under Crawford. Id. at 291. The Second Circuit concluded that the

22

statements, which were given during formal interviews with law

23

III

24

enforcement, were both “testimonial” and made “in furtherance of a conspiracy.” Id. at

25

292.

Id. at 290.

The statements contained both truthful and untruthful

26

The court held that in the “special context” of that case, in which the “object of the

27

conspiracy is to obstruct an investigation that is engaged in obtaining those testimonial

28

statements,” there was no Confrontation Clause violation. Id. at 292. That is, because
I: Chambers V.3jorCASES'Gann v. Career a]- l2cvHI8-JAH(Habe).l2cvUI8-RiR(proset.up(l. 71714

-32-

12cvl418

ER 227

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6318 Page 33 of 66

1

the very crime appellants were charged with was providing false or misleading

2

information to government investigators, the truthful statements “designed to lend

3

credence to the false statements and hence advance the conspiracy [were] not rendered

4

inadmissible by the Confrontation Clause.” Id. at 293.

5

This case is different than Stewart. Hansen’s statements were not the “very object

6

of the charged conspiracy.” Neither Gann nor Hansen were charged with conspiracy.

7

Moreover, the “essence” of the charged crime, murder, does not necessarily require

8

giving false answers to government inquiry. In contrast, conspiracies to obstruct justice

9

and commit perjury require deception and misrepresentation by their very nature. The

10

Stewart court stressed that its holding was narrow, and it was not attempting to “resolve

11

broadly the tension between the ‘in furtherance’ rule allowing uncross-examined

12

statements and the ‘testimonial’ rule prohibiting them.” Id. at 292.

13

Yet, while this Court finds a significant difference between the conspiracy to

14

obstruct justice in the Stewart case and the “conspiracy to commit murder and make it

15

look like a home invasion robbery,” the state appellate court’s decision is not “objectively

16

unreasonable.” In Stewart, the court stated when the “object of a conspiracy is to obstruct

17 justice, mislead law enforcement officers, or commit similar offenses by making false
18

statements to investigating officers, truthful statements made to such officers designed

19

to lend credence to the false statements hence advance the conspiracy are not rendered

20

inadmissible by the Confrontation Clause.” Id. at 293. Here, it was not unreasonable for

21

the state appellate court to apply the same rationale to the facts of this case. Like the

22

statements in Stewart, Hansen’s statement to Rivera was peppered with

23

///

24

truthful statements, arguably in order to make the false portions of her story more

25

believable, and thus avoid detection.

26

As discussed above, a federal court has the authority to issue habeas relief only

27

“where there is no possibility fairminded jurists could disagree that the state court’s

28

decision conflicts with [the Supreme Court’s] precedents.” Richter, 131 S.Ct. at 786; see
bChambersMaionCASESVGann v, Caieel al - l2cv|41S-JAH (HatelMicvl-ilS-RSiR (pro sei.wpd. 71714

-33-

12cvl418

ER 228

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6319 Page 34 of 66

1

also Murray, 745 F.3d at 998. Here, in a set of circumstances never before squarely

2

addressed by the Supreme Court, the state appellate court applied the correct legal

3

standards, examined the relevant factors, and came to a reasonable conclusion.

4

Accordingly, the state court’s finding that the Hansen’s statement was admissible under

5

the Confrontation Clause, was not contrary to, nor did it involve an unreasonable

6

application of, clearly established federal law. See 28 U.S.C. § 2254(d); see also Moses

7

v. Payne, 555 F.3d742,754-55 (9th Cir. 2009) (holding that when the Supreme Court has

8

never squarely addressed whether a particular type of statement is testimonial, the

9

admission of such statement as nontestimonial is not contrary to clearly established

10

federal law or an unreasonable application of Crawford).
(iv)

11

Harmless Error

12

Even assuming that Hansen’s statements to Rivera should have been excluded

13

under the Confrontation Clause, any error was harmless. First, a portion of the statement

14

was repetitive of Hansen’s statement to the 911 dispatcher, which was properly admitted.

15

Furthermore, for the same reasons discussed above in section IV(C)(2)(b) of this Report

16

and Recommendation, there was ample evidence to support Gann’s murder conviction

17

outside of Hansen’s statements. Goodman testified that Gann confessed to him and

18

provided a detailed accounting of the crime. Gann told Goodman he and Hansen had

19

first considered hiring a hitman to kill MacNeil. When that plan fell through, Gann

20

decided to do the job himself. (Lodgment No. 2, vol. 12 at 928.) Hansen and-Gann

21

decided to make the murder look like it happened during a robbery. (Id. at 930.) After

22

he shot MacNeil, he ran out the back door and up a stairway to the street above, to where

23

III

24

he had parked his truck. (Id. at 932.) Along the way he tossed his sweatshirt and mask.

25

(Id at 930-32, 943.)

26

Goodman’s testimony was corroborated by physical evidence, including the knit

27

mask which was found in a tree along the intmder’s escape route. Gann’s DNA was

28

found on the mask. Furthermore, receipts corroborated Goodman’s testimony that Gann

t'Chsmbera Major CASES Gann v. Caeetal- t2cvl4|g.JAH (HabeVUcvUI S-R£R (pro sel.wpd. 71714

-34-

12cvl418

ER 229

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6320 Page 35 of 66

1

told him he purchased the dark clothing at a Goodwill the day before the killing. (Id. at

2

1054; id., vol. 13 at 1150-51.) Witnesses in the neighborhood testified they saw Gann’s

3

truck parked at the top of the hill above the MacNeil residence, at the time of the murder.

4

(Id., vol. 7 at 481-83.) And one witness testified that he was “pretty confident” that

5

Gann was the man he saw running from the house. (Id. at 454.) Thus, in light of the

6

other evidence presented against him a trial, Gann has not shown the admission of the

7

statements had a substantial injurious effect on the jury’s verdict. See Brecht, 507 U.S.

8

at 638.

9

In sum, the Court finds Gann’s statement to Rivera was “testimonial.”

10

Nonetheless, the state court’s conclusion that the statement was made in furtherance of

11

a conspiracy and was thus admissible under the Confrontation Clause was neither

12

contrary to, nor an unreasonable application of, clearly established law. See 28 U.S.C.

13

§ 2254(d)(1); see also Williams, 529 U.S. at 407-408. Nor was the state court’s

14

determination of the facts unreasonable in light of the evidence. See 28 U.S.C. §

15

2254(d)(2). In addition, even assuming there was constitutional error, it was harmless.

16

See Brecht, 507 U.S. at 638. Therefore the Court RECOMMENDS this sub-claim be

17

DENIED.
K.U.’s Testimony

18

D.

19

In claim two, Petitioner argues the testimony of “K.U.”, a former girlfriend of

20 Gann’s, was improperly admitted, in violation of his due process rights. Specifically,
21

Gann claims that the trial court should not have permitted K.U. to testify on rebuttal that

22 Gann had raped her when they were dating because it was inflammatory and prejudicial.
23

(Pet. at 7.) Petitioner raised this claim in the California Supreme Court. Because that

24 court denied Gann’s petition for review without comment, this Court looks through to the
25 Court of Appeal decision. Ylst, 501 U.S. at 803. In denying the claim, the appellate
26 court summarized the underlying facts as follows:
27
28

Gann presented seven witnesses who testified that they believed Gann
had a peaceful and nonviolent character. To rebut this evidence, the
prosecution called K.U., who testified that in her opinion, Gann was a
violent person.
UChambm Major CASES'Gann v. Career al - 12cvl4]g.JAH (HabeVI2cvl4|8-R&R (pro sev»p& 71714

-35-

12cvl418

ER 230

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6321 Page 36 of 66

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

At the time of the trial, K.U. was living in England. The prosecution
was able to contact her during Gann’s defense case, while she was visiting
relatives in Arizona. The day before K.U. was called as a witness, the
prosecutor informed Gann’s counsel that he intended to call her as a rebuttal
witness and gave Gann’s counsel a taped recording of a telephonic interview
between K.U. and the prosecution investigator. During the recorded
interview, K.U. said that she believed that Gann was a violent person, and
related that he had slapped her, tried to control her and sexually abused her.
Gann’s counsel unsuccessfully attempted to prevent K.U. from testifying.
At trial, K.U. testified that Gann had slapped her in the face once at
high school and that he had been sexually abusive toward her. When the
prosecutor inquired further about the alleged sexual abuse, K.U. blurted out
that Gann had raped her. At that point the court called a recess in order to
allow K.U. to regain her composure.
Outside the presence of thejury, Gann’s counsel moved for a mistrial,
stating that it would be impossible to overcome the prejudice stemming
from the rape accusation. Counsel pointed out that during the interview
with the prosecution investigator, the witness had neither explicitly or
implicitly stated that Gann had raped her. [Footnote 11: The prosecutor
professed that he was unaware that K.U. was going to say Gann raped her.]
Defense counsel further argued that he was unprepared to cross-examine
concerning a rape allegation, and that the violation of Gann’s due process
rights caused by the unanticipated rape allegation could not be cured.
Although the trial court said that it would consider striking the testimony
about the rape, the prosecutor objected and defense counsel essentially
reiterated that the damage from the testimony could not be cured. The court
directed the prosecutor not to “overreach” in his further questioning about
the sexual abuse, and sustained numerous objections in this regard when the
prosecutor continued his direct examination of K.U. The court also granted
Gann’s counsel a one-day continuance to attempt to locate surreubttal
witnesses who could impeach K.U.
(Lodgment No. 13 at 25-26.)

19
20
21

The appellate court analyzed the claim under state law and concluded that although
the trial court had erred in failing to strike the testimony, the error was harmless. The
appellate court stated, in relevant part:

22
23
24
25
26
27
28

It is undisputed that no one anticipated that K.U. would blurt out that
Gann had raped Tier. Thus, the issue is not whether the court should have
precluded K.U.’s “rape” testimony, but rather what the court should have
done after she claimed that Gann had raped her. When a witness blurts out
something unexpected, an order to strike the testimony and an admonition
to the jury to disregard the testimony are ordinarily sufficient to cure the
harm. (E.g People v. Price (1991) 1 Cal.4th 324, 454-455; People v.
Martini1983) 150 Cal.App.3d 148, 162-163.) If a trial court finds that the
prejudice is incurable, the court should order a mistrial. (People v. Harris
(1994) 22 Cal.App.4tn 1575, 1581.) When a witness blurts out potentially
prejudicial matter, the trial court is vested with considerable discretion in
deciding whether to grant a mistrial or strike the testimony. {Ibid.)
t:'Chamb«s Major CASES Gann v. Caie c: al - 12e\ UI&.JAH (Habel.l2cvl4IS.RfiR (prosel.upd. 71714

-36-

12cvl418

ER 231

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6322 Page 37 of 66

Here, the trial court did neither. We do not fault the court for refusing
to declare a mistrial; the prejudice was not incurable, as demonstrated by the
fact that defense counsel was able to quickly locate several surrebuttal
witnesses who effectively impeached K.U. However, the trial court should
have followed its initial inclination to strike the testimony and admonish the
jury, even though defense counsel did not indicate that he wanted the court
to strike the testimony.

1
2
3
4

Although the trial court should have stricken the “rape” testimony ,we
conclude that the error in not striking the testimony was harmless. The
evidence against Gann was more than ample to convict him of first degree
murder. Gann’s DNA was found on the inside of the mask that was stuffed
in the black shirt, which had been discarded along the getaway route. Gann
was identified by one eyewitness as the male who the witness saw running
away from the MacNeil residence. Gann’s truck was parked on a nearby
street at the time of the murder, and another witness saw a male running
from the residence to the truck and entering the truck. Goodman, the
Arizona jail cellmate who testified about the version of the murder that
Gann related to him, linked Gann to the murder conspiracy with Hansen.
Goodman’s testimony was corroborated by the Goodwill receipts and
Gann’s credit card transaction statements, which showed that Gann had
purchased black clothing in preparation for the murder. Given all this
evidence, it is not reasonably probable that the jury would have returned a
different verdict if the trial court had stricken K.U.s surprise “rape”
testimony; {People v. Watson (1956) 46 Cal.2d 818, 836.)

5
6
7
8
9
10
11
12
13
14

{Id. at 25-30.)

15

As discussed above, federal habeas relief is not available for state law errors

16
17
18
19
20
21
22

because the writ only can be issued if there was a violation of the Constitution, laws or
treaties of the United States. See Estelle, 502 U.S. at 67-68. The admission of evidence
is not subject to federal habeas review unless a specific constitutional guarantee is
violated or the error is of such magnitude that the result is a denial of the fundamentally
fair trial guaranteed by due process. Pulley, 465 U.S. at 41; see also Henry v. Kernan,
197 F.3d 1021, 1031 (9th Cir. 1999).
III

23
24
25
26
27
28

The Supreme Court “has not yet made a clear ruling that admission of irrelevant
or overtly prejudicial evidence constitutes a due process violation sufficient to warrant
issuance of the writ.” Holley v. Yarborough, 568 F.3d 1091, 1101 (9th Cir. 2009)
(finding that trial court’s admission of irrelevant and prejudicial pornographic materials
was “fundamentally unfair” under Ninth Circuit precedent but not contrary to, or an
unreasonable application of, clearly established Federal law under § 2254(d)); see also
l-.Chamhire Major CASES'Ginn v. Cartel a! - I2cvl4|$-JAH (Habel Ucvl-MS-R&Rlpro stj.wpj, 71714

-37-

12cvl418

ER 232

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6323 Page 38 of 66

.1

Mejia v. Garcia, 534 F.3d 1036, 1046 (9th Cir. 2008) (holding that a state trial court’s

2

error in admitting propensity evidence does not amount to a violation of clearly

3

established federal law under AEDPA); Alberni v. McDaniel, 458 F.3d 860, 866-67 (9th

4

Cir. 2006) (same).

5

Thus, even if a state trial court’s admission of irrelevant and inflammatory

6

materials was “fundamentally unfair” under Ninth Circuit precedent, this error cannot be

7

the basis of federal habeas relief because it is not contrary to, or an unreasonable

8

application of, clearly established Federal law within the meaning of 28 U.S.C. § 2254(d).

9

Holly, 568 F.3d at 1101; see also Wrightv. VanPatten, 552 U.S. 120,126 (2008) (stating

10

that where Supreme Court’s cases give no clear answer to the question presented, state

11

court’s rejection of petitioner’s claim did not constitute an unreasonable application of

12

clearly established Federal law); Musladin, 549 U .S. at 77 (“Given lack ofholdings from

13

this Court regarding [a specific issue], it cannot be said that the state court

14

‘unreasonably] applied] clearly established Federal law.’”). Accordingly, Gann is not

15

entitled to relief as to this claim.

16

Furthermore, habeas relief for an erroneous evidentiary ruling of constitutional

17

dimension would only be available if the error had a “substantial and injurious effect or

18

influence in determining the jury’s verdict.” Brecht, 507 U.S. at 637. As discussed

19

above, there was sufficient evidence of Gann’s participation in the crime. Forensic

20

evidence, including his DNA found on the black mask, strongly implicated him.

21

Goodman testified that Gann had confessed to killing MacNeil, and provided numerous

22

details about the crime that were corroborated by physical evidence. Witnesses testified

23

that they believed Gann had traveled to San Diego at the time of the crime. Receipts

24

confirmed that, as Goodman had testified, Gann purchased clothing at a Goodwill before

25

the crime. His truck was seen at the top of the hill, above the MacNeil home, on the day

26

of the murder. One witness was “pretty confident” Gann was the person he saw running

27

up the stairs behind the MacNeil home.

28

!::Chamben MsjorCASES'Gajm v. Cjic elaJ- lirvl-IIS-JAH (HobeVUcvHIS-RitRlpro «e(.upd, 71714

-38-

12cvl418

ER 233

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6324 Page 39 of 66

1

In addition, any potential prejudice from K.U. ’s surprise testimony was tempered

2

by further testimony. After K.U. unexpectedly blurted out that Gann had raped her, the

3

trial court permitted the prosecutor to question her further in order to clarify what she

4

meant by the term “rape.” (Lodgment No. 4, Rep. Tr. vol. 21 at 1749, 1751.) She then

5

testified that although she did not want to have intercourse with Gann, she did not voice

6

her objections to him. (Id. at 1752.) Later, however, she testified she did not think the

7

sex was consensual, stating, “I told him I never wanted to do that kind of stuff, and he

8

kept asking it [sic] all the time. And he wouldn’t stop.” (Id. at 1765.)

9

After K.U. testified, the defense called Joshua Wood as a surrebuttal witness.

10

Wood testified that he dated K.U. soon after she and Gann broke up. He stated that K.U.

11

told him that she had consensual sex with Gann, but that she felt guilty about it, because

12

of her religious convictions. (Id., vol. 23 at 1832-33.) Although K.U. told Wood she was

13

afraid of Gann, she never said Gann was violent toward her. (Id. at 1834.) Wood also

14

testified that K.U. tended to blow things out of proportion and “victimize” herself. At

15

times, Wood stated, K.U. seemed to have difficulty taking responsibility for her own

16

actions and tended to overdramatize things. (Id. at 1834-35.) Accordingly, in light of the

17

other testimony and evidence, K.U.’s improper testimony and use of the term “rape” did

18

not have a substantial injurious effect on the jury’s verdict.

19

In sum, the state court’s denial of the claim was neither contrary to, nor an

20

unreasonable application of clearly established law because the Supreme Court has yet

21

to hold that the admission of irrelevant or overtly prejudicial evidence constitutes a due

22

process violation sufficient for federal habeas relief. See Musladin, 549 U .S. at 77.

23

Moreover, even assuming that such a claim could be a basis for relief, any such error was

24

harmless. Brecht, 507 U.S. at 637.

25

be DENIED.

The Court therefore RECOMMENDS the claim

26

E.

Cumulative Evidentiary Errors

27

In claim three, Gann argues the cumulative impact of the evidentiary errors raised

• 28

in claims one and two, deprived him of his due process rights. (Pet. at 9.) He raised this
I^.Chambers Major CASES'.Gann v. Caieetai - 12cvI4IS-JAH iHaber.UcvUI8-R£R (pro seku-pd. 71714

-39-

12cvl418

ER 234

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6325 Page 40 of 66

1

claim in his petition for review to the California Supreme Court, which was denied

2

without comment. As such, this Court looks through to the last reasoned decision by the

3

state courts. Ylst, 501 U.S. at 803. The appellate court denied the claim, stating:

4

Because we have concluded there was only a single evidentiary error,
and that this error was harmless, “we have no occasion to consider the
impact of cumulative error.” (.People v. Holt (1997) 15 Cal.4th 619, 693.)

5
6

(Lodgment No. 13 at 30.)

7

“The Supreme Court has clearly established that the combined effect of multiple

8

trial court errors violates due process where it renders the resulting trial fundamentally

9

unfair.” Parle v. Runnels, 505 F.3d 922, 927 (9th Cir. 2007) (citing Chambers v.

10

Mississippi, 410 U.S. 284,298 (1973)); see also Whelchel v. Washington, 232 F.3d 1197,

11

1212 (9th Cir. 2000). “The cumulative effect of multiple errors can violate due process

12

even where no single error rises to the level of a constitutional violation or would

13

independently warrant reversal.” Parle, 505 F.3d at 927; see also United States v.

14

Frederick, 78 F.3d 1370,1381 (9th Cir. 1996) (stating that where no single trial error m

15

isolation is sufficiently prejudicial to warrant habeas relief, “the cumulative effect of

16

multiple errors may still prejudice a defendant”). Where “there are a number of errors

17

at trial, ‘a balkanized, issue-by-issue harmless error review’ is far less effective than

18

analyzing the overall effect of all the errors in the context of the evidence introduced at

19

trial against the defendant.” Fredereick, 78F.3dat 1381 (quoting United States v.

20

Wallace, 848 F.2d 1464,1476 (9th Cir. 1988)). Cumulative error warrants habeas relief

21

only where the combined effect of the errors had a “substantial and injurious effect or

22

influence on the jury’s verdict.” Parle, 505 F.3d at 927 (quoting Brecht, 507 U.S. at

23

637).

24

The appellate court found only one error by the trial court, namely that K.U.’s

25

surprise testimony that she had been raped by Gann should have been stricken. As

26

discussed above, this error does not rise to the level of a constitutional violation.

27

Furthermore, as discussed above, the state court’s conclusions regarding Hansen’s

28

l: Chinibcn MajorCASES'Gann v. Cneti a! - 12cvl4lS-JAH(Hateli!'cvU!£.R£R(profel.u-pd. 7I7M

-40-

12cvl418

ER 235

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6326 Page 41 of 66

1

statements were a reasonable application of clearly established law.8 Where “there is no

2

single constitutional error... there is nothing to accumulate to a level of a constitutional

3

violation.” Mancuso v. Olivarez, 292 F.3d 939, 957 (9th Cir. 2002); see also Hayes v.

4

Ayers, 632 F.3d 500, 523-24 (9th Cir. 2011) (“Because we conclude that no error of

5

constitutional magnitude occurred, no cumulative prejudice is possible.”). Moreover,

6

Petitioner has not suffered the “effect of multiple trial court errors” such that his due

7

process rights were violated and he is entitled to federal habeas relief. See Parle, 505

8

F.3d at 927.

9

The state court’s denial of the claim was neither contrary to, nor an unreasonable

10

application of, clearly established law. See 28 U.S.C. § 2254(d); Williams 529 U.S. at

11

407-08. Therefore, the Court RECOMMENDS that Petitioner’s request for relief due to

12

cumulative error be DENIED.
Judicial Bias

13

F.

14

In his fourth claim, Gann argues he was denied due process because the trial judge

15

was biased, having prejudged the case based on extrajudicial information. (Pet. at 10.)

16

Specifically, he claims that Judge Link attended the arraignments of Gann and Hansen

17

as a spectator and had been overheard stating that MacNeil was a good man and he “did

18

not deserve what those punks” had done to him. (Id.) Gann raised this claim on direct

19

appeal to the California Supreme Court, and it was denied without comment. (Lodgment

20

No 16, 18.) This Court therefore looks through to the California Court of Appeal’s

21

opinion. See Ylst, 501 U.S. at 803.

22
23

The appellate court denied the claim, stating:
1.

24

Background

25
26
27
28

8

Although, as discussed in Section IV(C)(2)(c)(ii) of this Report and Recommendation, it
appears the trial court may have erred in considering certain evidence to determine that Gann and
Hansen conspired to murder MacNeil and make it look like a home-invasion robbery, because there was
other evidence to support the conspiracy, the court’s ultimate conclusion was not erroneous.
^ChambersMajor CASES Gann v. Cateei al- 12cvl418-JAH iHabe)'l2cv!4!8-R&R(pro sei.wpi 71714

-41-

12cvl418

ER 236

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6327 Page 42 of 66

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Judge Link was the judge who reviewed the declaration in support of
the arrest warrant and subsequently signed the warrant. All counsel were
aware of this fact.
Prior to trial, Judge Link informed defense attorneys and the
defendants, on the record; that he had known MacNeil and that he had
presided over two or three cases that MacNeil had tried. Judge Link said
that he and MacNeil had been friendly in the courthouse hallway, but that
he had never socialized with MacNeil and that they were never present at
the same social events. Judge Link also said that he had gone to a poster
shop that MacNeil had owned, and that he might have purchased something
at the shop. Judge Link added:
But that’s all my contact with him. So I want everybody to
know that, ffl] You know as I said to the attorneys, and say to
you now, I’m going to treat this case and... Mr. MacNeil like
I would any other victim. And I have no reason to treat this
case any differently because of my contact with him.”
Gann and Hansen indicated they had no objection to Judge Link continuing
to preside over the case.
On April 15, 2009, after the jury verdicts were announced in court,
Gann’s counsel received information about the case from attorney Geoffrey
Morrison - namely, that Morrison had observed Judge Link in the spectator
area of the courtroom at Gann and Hansen’s arraignment and heard the
judge say that MacNeil was a good man and that he did not deserve what
these ‘punks’ did to him.”
In his motion for a new trial, Gann’s counsel argued that a new trial
was warranted on the nonstatutory ground that the court was biased against
him, and stated that Morrison had related to him the comment that Morrison
attributed to Judge Link. In the motion for a new trial, Gann’s counsel did
not claim that the judge exhibited bias at trial, and did not cite or refer to any
rulings that the trial court made that showed bias.
2.

Legal Principles

A defendant “has a due process right to an impartial trial judge under
the state and federal Constitutions. [Citations.] The due process clause ofthe
Fourteenth Amendment requires a fair trial in a fair tribunal before a judge
with no actual bias against the defendant or interest in the outcome of tne
case. [Citation.]” {People v. Guerra, supra, 37 Cal.4th at p 1111.) It is well
settled that “[jjurors rely with great confidence on the fairness of judges,
and upon the correctness of their views expressed during trials.” (People v.
Mahoney (1927) 201 Cal. 618, 626-627.) Accordingly, it cannot be
overemphasized that trial judges must remain scrupulously impartial and be
ever vigilant “not to throw the weight of [their] judicial position into a case,
either for or against the defendant/’ (Id. at p. 627.)
As the United Supreme Court has explained:
“[0]pinions formed by the judge on the basis of facts
introduced or events occurring in the course of the current
proceedings, or of prior proceedings, do not constitute a basis
for a bias . . . unless they display a deep seated favoritism or
antagonism that would make fair judgment impossible. Thus,
^'Chambers MajorCASES Gann v. Cats«a! - UcvlJlS-lAH (Habe) Ucvl-HS-RiRiproseiwpt 71714

-42-

12cvl418

ER 237

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6328 Page 43 of 66

1
2
3
4
5
6
7
8
9
10
11
12
13

judicial remarks during the course of a trial that are critical or
disapproving of, or even hostile to, counsel, the parties or their
cases, ordinarily do not support a bias or partiality challenge.
They may do so if they reveal an opinion that derives from an
extrajudicial source; and they will do so if they reveal such a
high degree of favoritism or antagonism as to make fair
judgment impossible. And example of the latter (and perhaps
of the former as well) is the statement that was alleged to have
been made by the District Judge in Berger v. United states
[(1921)L 255 U.S. 22 . .
a world War I espionage case
against German -American defendants: ‘ One must have a very
judicial mind, indeed not [to be] prejudiced against the German
Americans’ because their ‘hearts are reeking with disloyalty.’
[Citation.] Not establishing bias or partiality, however, are
expressions of impatience, dissatisfaction, annoyance, or even
anger, what are within the bounds of what imperfect men and
women, even after having been confirmed as federal judges,
sometimes display.” Liteky v. United States (1994) 510 U.S.
540, 555-556, original italics omitted, new italics added.)
At the same time, we recognize that there is a presumption of judicial
“honesty and integrity.” (Withrow v. Larkin (1975) 421 U.S. 35, 47.)
“[0]nly the most ‘extreme facts’ would justify disqualification based on the
due process clause.” {People v. Freeman (2010) 47 Cal.4th 993, 996.)
3.

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Analysis

Gann’s complaint is based on an extrajudicial comment that he
alleges the trial judge made before the trial. However, Gann has not made
a sufficient showing that Judge Link in fact made the comment.
In his motion for a new trial, Gann’s counsel based his claim that
Judge Link made the extrajudicial comment on an e-mail message that
Gann’s counsel received from attorney Morrison in which Morrison stated
that he had information about the case, and on a follow-up telephone
conversation with Morrison. According to an investigative report prepared
by defense investigator Karen Gould, who had listened in on the
conversation via speaker phone:
“Mr. Morrison informed Mr. Garcia he had just heard the Gann
conviction on the news, and learned the judge who heard the
case was Judge Link. Mr. Morrison further stated that he felt
Judge Link might have a personal interest in the case. Mr.
Morrison recalled being in the courtroom when Mr. Gann and
Ms Hansen were arraigned. Mr. Morrison noticed Judge Link
was in the audience of the courtroom during the arraignment.
On the way out of the courtroom Mr. Morrison [heard] Judge
Link sa[yl the victim in the case, Tim M[a]cNeil, was a good
man ana did not deserve what those ‘punks’ did to him. Mr.
Morrison thought the statement was odd, but dismissed it until
he learned Judge Link presided over Mr. Gann’s trial at which
point he felt it important to contact Mr. Garcia.”
Gould’s report was attached as exhibit B to the new trial motion. The
new trial motion did not include a declaration from attorney Morrison.
Counsel made no attempt during the hearing on the new trial motion to
k'Chambers Msjor CASES'G3nr v. Caieel al -

I41S-JAH (Habel Ucvl4l$-RJtRip!T>s4i upd. 71714

-43-

12cvl418

ER 238

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6329 Page 44 of 66

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

substantiate the claim that Judge Link had made the remark. Hence, what
is before us is double hearsay and establishes nothing. Even Gann’s counsel
referred to the information that Morrison related as an “allegation’ during
the hearing on the new trial motion.
We will not presume error on appeal. Rather Gann bears the burden
of presenting a record that affirmatively shows that there was an error
below. Any uncertainty in the record must be resolved against him. (Peon le
v. Green (1979) 95 Cal.App.3d 991, 1001; People v. Clifton (1969) 2170_
Cal.App.2d 860, 862.) The record here does not affirmatively demonstrate
that Judge Link made the extrajudicial comment at issue.
Further, Gann’s counsel never expressed any concern that Judge Link
was prejudiced against his client during trial. It is also significant that
Gann’s counsel has not identified any rulings or comments made by Judge
____ :rial that demonstrate bias against Gann. (Seee.g..Peoplev. Tappan
(1968) 266 Cal.App.2d 812, 816-817 [following trim judge’s allegedly
prejudicial pretrial comment, defendant’s failure to complain ofjudge’s bias
during trial showed defendant’s confidence in judge’s impartiality].)
We reject Gann’s contention that he was denied due process because
of judicial bias. There was thus no error in denying the new trial motion.
(Lodgment No. 13 at 31-35.)
The Due Process Clause guarantees a criminal defendant the right to a fair and
impartial tribunal. In re Murchison, 349 U.S. 133,136 (1955). To succeed on a judicial
bias claim, however, a petitioner must “overcome a presumption of honesty and integrity
in those serving as adjudicators.” Withrow v. Larkin, 421 U.S. 35, 47 (1975). A
petitioner may show judicial bias in one of two ways, by demonstrating the judge’s actual
bias or by showing that the judge had an incentive to be biased sufficiently strong to
overcome the presumption ofjudicial integrity. See Paradis v. Arave, 20 F.3d 950, 958
(9th Cir. 1994). As the Supreme Court has explained, “opinions formed by the judge on
the basis of facts introduced or events occurring in the course of the current proceedings,
or of prior proceedings, do not constitute a basis for a bias or partiality motion unless they
display a deep-seated favoritism or antagonism that would make fair judgment
impossible.” Litekyv. United States, 510 U.S. 540, 555 (1994).
“While most claims of judicial bias are resolved by common law, statute, or the
professional standards of the bench and bar, the Due Process Clause of the Fourteenth
Amendment establishes a constitutional floor” and requires judicial recusal in cases
“where the probability of actual bias on the part of the judge or decisionmaker is too high
l: Chambers Major'CASESGaroi v. Cate rial- I2cv!4]J-JaH (HabeV.l2evl4tJ.RXR iprosel.wpd. 71714

-44-

12cvl418

ER 239

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6330 Page 45 of 66

1

to be constitutionally tolerable.” Hurles v. Ryan, 650 F.3d 1301, 1309 (9th Cir. 2011)

2

(citing Caperton v. A.T. Massey Coal Co. Inc. 556 U.S. 868, 872 (2009)). On habeas

3

corpus review, the relevant inquiry is not whether the trial judge committed judicial

4

misconduct, but rather, “whether the state trial judge’s behavior rendered the trial so

5

fundamentally unfair as to violate federal due process under the United States

6

Constitution.” Duckett v. Godinez, 61 F.3d 734, 740 (9th Cir. 1995). The burden of

7

establishing bias rests with the party making the assertion of bias. See Schweiker v.

8

McClure, 456 U.S. 188, 195-96 (1982).

9

Here, the California Court of Appeal’s denial was neither contrary to, nor an

10

unreasonable application of, Supreme Court precedent. At the hearing on Gann’s motion

11

for a new trial, defense counsel referred to Judge Link’s comment as “alleged.”

12

(Lodgment No. 2, Rep. Tr., vol. 25 at 1970-71.) Morrison, the attorney who reportedly

13

overheard the comment, did not provide a sworn declaration. Rather, the only evidence

14

presented was a report by an investigator who listened in on a phone call between defense

15

counsel Garcia and Morrison, concerning Judge Link’s statement. (Lodgment No. 1,

16

Clerk’s Tr., vol. 3 at 614.) For his part, in denying the motion, Judge Link stated that he

17

appreciated defense counsel’s use of the word “alleged.” He did not admit making the

18

statement attributed to him. He stated further:

19
20
21
22

The defense in this case knew about my previous contacts with Mr.
MacNeil, and how I felt about him. As I said, 1 thought he was a good guy.
However, I said I would treat him as I would treat any other of the nundreas
of other murder victims that I have come in contact with in cases that I have
handled throughout my career. In his case, and the hundreds of other cases
- the hundreds of other murder victims that I have handled, my attitude has
always been, and it is today, and it always will be, that they did not deserve
to die.

23
24

(Lodgment No. 3. Rep. Tr., vol. 27 at 1979.)

25

In Nelson, the defendant challenged the trial judge as biased. He sought to have

26

the judge recused from retrying his case, claiming the judge had “announced in open

27

court his own belief that the defendant is guilty.” United States v. Nelson, 718 F.2d 315,

28

321 (9th Cir. 1983). The Ninth Circuit found no due process violation. First, the court
h'Chamben Maior.CASES'Gann v. Cateet s!- I’cvNIS-JAH (HabeHUcv) JI8-R&R (proselwpi 717M

-45-

12cvl418

ER 240

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6331 Page 46 of 66

1

declined to infer that the judge had made the statement, which was not part of the record,

2

simply from the fact that the judge did not deny the allegation. Id. Further, the court

3

found that even assuming the judge had made the statement, it did not render the judge

4

biased “because judges predictably reaching conclusions on the evidence put before them

5

does not prevent them from affording a defendant a fair and impartial trial.” Id. Finally,

6

the court concluded that the defendant had failed to “produce any record citations to

7

demonstrate that the alleged bias actually interfered with the new trial.” Id.

. 8

This case is similar to Nelson. Gann has failed to produce sufficient evidence that

9

Judge Link made the comment. The allegation was based on an unsworn statement taken

10

from Morrison over the phone. Judge Link did not admit making the comment and even

11

defense counsel referred to it as an “allegation.” See Nelson, 718 F.2d 321 (declining to

12

infer judge made an allegedly improper comment from the judge’s failure to deny it).

13

Even if this Court were to presume Judge Link made the statement, it is insufficient

14

to suggest it prevented him from providing Gann with a fair trial. Judge Link disclosed

15

that he knew MacNeil, who was a criminal defense attorney, professionally and had

16

presided over a few of MacNeil’s trials. (Lodgment No. 4, Aug. Rep. Tr, vol. 1 at 15.)

17

He stated further:
You know as I said to the attorneys, and say to you now, I’m going
to treat this case, and you know, Mr. MacNeil like I would treat any other
victim. And I have no reason to treat this case any differently because of
my contact with him.

18
19
20
21

(Id.) Gann argues that Judge Link had formed a preconceived notion about his guilt

22

because the judge had signed his arrest warrant and read the declaration in support of his

23

arrest. (Pet. at 10.) However, the parties were aware Judge Link signed the arrest

24

warrant. (Lodgment No. 1, vol. 5 at 600, 607-612.) More importantly, Gann has not

25

shown Judge Link had “a deep-seated favoritism or antagonism that would make fair

26 judgment impossible.” Liteky, 510 U.S. at 555 (stating that the mere fact that a judge has
27

formed opinions based on facts established in prior proceedings, does not alone establish

28

bias).

I: .Chambers MajorCASES'Gsnn

Career ai • 12cvU1S-JaJH l Hate).Ucvl-IIR-R&R (pro sel.wpd. 7171-1

-46-

12cvl418

ER 241

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6332 Page 47 of 66

1

Gann has failed to point to any examples in the record that show how any

2

purported bias interfered with his trial. In his Traverse, Petitioner claims there were

3

numerous examples of Judge Link’s bias which took place during discussions held off

4

the record. (Traverse at 12.) Such conclusory allegations, however, do not warrant

5

habeas relief. See Greenway v. Schriro, 653 F.3d 790,804 (9th Cir. 2011). Petitioner has

6

not met his burden to show judicial bias rendered his trial fundamentally unfair. See

7

Schweiker, 456 U.S. at 195-96; see also Larson v. Palmateer, 515 F.3d 1057, 1067 (9th

8

Cir. 2008) (finding that a judge’s “impatient remarks” to a defendant are generally

9

insufficient to overcome the presumption of judicial integrity).

10

Based on the foregoing, the state court’s denial of Gann’s judicial bias claim was

11

neither contrary to, nor an unreasonable application of, clearly established law. See 28

12

U.S.C. § 2254(d); Williams, 529 U.S. at 407-08. The Court RECOMMENDS the claim

13

be DENIED.

14

G.

15

In claim five, Gann argues that the trial court’s refusal to release the psychiatric

16

records of prosecution witness Charles Goodman to the defense amounted to a violation

17

of his Sixth Amendment right to confront witnesses. (Pet. at 11; see also Traverse at 14-

18

lb.) Petitioner also asks this Court to review the sealed records. The Court has obtained

19

the sealed records from the state court and reviewed them.

Psychiatric Records of Charles Goodman

20

Goodman shared a cell with Gann while they were detained in Maricopa County

21

Jail and Goodman testified as to incriminating statements Gann purportedly made to him

22

when he and Gann were housed in the jail’s psychiatric unit. Gann raised this claim in

23

his petition for review to the California Supreme Court, which was denied without

24

III

25

comment. (Lodgment Nos 16, 18.) This Court therefore must look through to the

26

appellate court’s decision, denying the claim. The court stated:

27
28

Gann requests that this court examine the sealed psychiatric records
ofprosecution witness Goodman and determine whether the trial court erred
by not releasing all or some of the records to Gann’s counsel. We have
I: Chamber* Major CASES Gann v. Caiett ai - UcvUlS-JAH (HabeV.12cvlJ]$-R&R (proMl.wpd. 7I7!-J

-47-

12cvl418

ER 242

Case 3:12-cv-01418-JAH-BLM

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Document 28 Filed 07/17/14 PagelD.6333 Page 48 of 66

complied with this request and have reviewed the sealed transcript of the ex
parte hearing in which Gann’s counsel argued that the records should be
disclosed.
Before Gann’s first trial, Goodman’s psychiatric records from
Marcicopa County, Arizonajail facility were sent to the trial court. The trial
court reviewed the records m camera. Gann sought release of the records
for use in impeaching Goodman on cross-examination. The court ultimately
ruled that Goodman s psychiatric records would not be released and ordered
the records sealed.
Generally, a witness’s psychiatric records in the possession of third
parties are not discoverable prior to trial. (.People v. Gurule (2002) 28
Cal.4th 557, 592.) In People v. Hammon (1997) 15 Cal.4th 1117, 1119
(Hammon), the California Supreme Court held that the right of
confrontation does not require the trial court, “at the pretrial state of the
proceedings, to review or grant discovery of privileged information in the
Hammon
hands of third party psychotherapy providers. At the outset, the Hammo;
court noted that the right of confrontation is a trial right. (Id. at pp. 1123
1124, construing .DavA v. Alaska (1974) 415 U.S. 308.7) The Hammon court
explained that Pennsylvania v. Ritchie (1987) 480 U.SS, 39, in which there
was
is no ma
majority opinion “called into question” a broader reading of Davis
v. Alaska, leaving it unclear “‘whether or to what extent the confirontation
or compulsory due process clauses of the Sixth Amendment grant pretrial
discovery rights to the accused.’ [Citations]” {Hammon, supra, atjx 1126,
e Sixth
Amendment grants criminal defendants a right to pretrial discovery of
psychiatric information. The court concludedthat there was no
“adequate justification for taking such a long step in the
direction the United States Supreme Court has not gone.
Indeed, a persuasive reason exists not to do so. When a
defendant proposed to impeach a critical prosecution witness
with questions that call for privileged information the trial
court may be called upon, as in Davis, to balance the
defendant’s need for cross-examination ana the state policies
the privileged is intended to serve. [Citation.] Before trial, the
court typically will not have sufficient information to conduct
this inquiry; hence, if pretrial disclosure is permitted, a serious
risk arises that privileged material will be disclosed
unnecessarily.” {Hammon, supra, 15 Cal. 4th 1127.)
Under the authority for Hammon, supra, 15 Cal. 4th 1117, the trial
court did not err in rejecting Gann’s request for the release of Goodman’s
psychiatric records prior to nis first trial.
Gann’s counsel did not renew his motion for disclosure of
Goodman’s records at any time during Gann’s first trial. Nor did Gann’s
counsel revisit the issue before or during the joint trial. Gann’s counsel did
ask the trial court prior to the joint trial whether the court’s rulings on
motions would stand. The trial court replied in the affirmative and added,
“Unless there has been some, change, some evidentiary change, whatever,
yes.”
Gann cannot persuasively argue that he relied on the court’s response
in not seeking Goodman’s psychiatric records during the second trial, since
1: Chamber? Major CASES'Gannv. Calf ei a! - I2c\ I418.JAH |HabeV.I2cvl4l$-R&R .pro sel.wpd. 71714

-48-

12cvl418

ER 243

Case 3:12-cv-01418-JAH-BLM

1
2
3
4
5
6
7
8

Document 28 Filed 07/17/14 PagelD.6334 Page 49 of 66

this response did not prevent Gann’s counsel from revisiting other adverse
rulings that the court made during the first trial, such as the admissibility of
Hansen’s prearrest statements. Absent a stipulation, a trial court’s rulings
made at a first trial are not necessarily in effect at a second trial. (People v.
Friend (2009) 47 Cal.4th 1, 63.) “While it is true the trial judge stated he
Must assumed: that rulings [he] made [at the first trial] wouldlbe observed by
the prosecution’ at the second trial, defendant presents no authority that the
rulings of the first trial were applicable to the second trial absent a
stipulation by the parties to that effect.” {Ibid.)
In light of the procedural posture on this issue, we conclude there was
no error with respect to the trial court’s ruling concerning Goodman’s sealed
psychiatric records.
(Lodgment No. 13 at 35-38.)

9

As the state court noted, Gann’s defense counsel requested release of Goodman’s

10

Maricopa County Jail psychiatric records prior to Gann’s first trial. The request was

11

based on an interview Detective Smith conducted with Goodman, in which Goodman

12

acknowledged that jail medical personnel had diagnosed him as bipolar, and prescribed

13

various medication. (Lodgment No. 4, Aug. Rep. Tr., vol. 3 at 115-119.) The defense

14

sought the records to determine whether Goodman had a condition that would impair his

15

ability to perceive, recollect or communicate information, in order to potentially impeach

16

his testimony. {Id. at 126.)

17

The records were obtained from the jail and reviewed by the trial court in camera.

18

{Id., vol. 3 at 138-39.) Initially, the trial court ruled the records would not be turned over

19

to the defense because there was no information in the file that would deny Gann his right

20

to present a defense. {Id. at 139.) After hearing additional argument from defense

21

counsel in camera, the court stated that “if there does come a point in Mr. Goodman’s

22

testimony where he makes certain comments which are in direct contravention to what

23

occurred in those records, I may disclose some of that information.” {Id. at 146.) The

24

trial court primarily cited People v. Hammond, the California Supreme Court’s lead

25

decision on discovery of psychiatric records under the Sixth Amendment and the due

26

process clause. {See id. at 149.)

27

The next day, the trial court changed its initial ruling, and issued a new tentative

28

ruling that the records would be provided to the defense based on a theory that Goodman
l:'Cha.nbcn Msjor CASESUann v. Caieel a] - I2cvMIS-JaH (HaSUUcvUIS-ftiiR iprosel.wpd 7171J

-49-

12cvl418

ER 244

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6335 Page 50 of 66

1

had waived his patient privilege. (Id., vol. 4 at 163.) Defense counsel noted that it was

2

the day ofjury selection and therefore they were technically “in trial.” (Id. at 150.) After

3

hearing further argument the next day, however, the court ultimately concluded that

4

Goodman did not waive his privilege and therefore the records would not be disclosed.

5

(Id., vol. 5 at 175.) The records were maintained as part of the trial court’s case file. (Id.

6

at 139.)

7

When Goodman testified at Gann’s first trial, defense counsel did not renew his

8

request for disclosure of the records. After the first trial ended in mistrial, when the judge

9

denied defense counsel’s motion against rejoinder, the following exchange occurred:

10

[DEFENSE COUNSEL]:

Your Honor, my other question is the court
had ruled on other motions in the prior - in
the first hearing with Mr. Gann, the first
case.

THE COURT:

Right.

[DEFENSE COUNSEL]:

May I presume that those rulings still
stand?

THE COURT:

Unless there has been some change, some
evidentiary change, whatever, yes.

11
12
13
14
15
16

17 (Lodgment No. 3, Rep. Tr., vol. 1 at 18.) Defense counsel did not make another request
18 for the records prior to, or during Goodman’s testimony at Gann’s second trial.
19

First, to the extent Gann is challenging the state court’s denial of the records as

20 contrary to California law regarding privilege and waiver, he fails to state a cognizable
21

claim on federal habeas. See Estelle, 502 U.S. at 67-68; Jammal v. Van de Kamp, 926

22 F.2d 918, 920 (9th Cir. 1991).
23

Next, as for Gann’s claim that he should have been permitted to review the records

24 before trial under the Confrontation Clause of the Sixth Amendment, he is not entitled
25 to relief. The Supreme Court has considered whether a trial court’s refusal to grant a
26 defendant access to information held by a state agency interfered with his Sixth
27 Amendment right to confront witnesses. Pennsylvania v. Ritchie, 480U.S. 39,51 (1987).
28 A plurality found that “nothing” in the case law supports the view that the Confrontation

t Chambers Major.CASESlGanri v. Cate eial- UcvNIS-JAH (HabelUcvl-Ilg-R&R (prosel.upd. 71714

-50-

12cvl418

ER 245

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6336 Page 51 of 66

1

Clause contains “a constitutionally compelled rule of pretrial discovery.” Id. at 52. There

2

is no clearly established Supreme Court precedent supporting the argument that the

3

Confrontation Clause applies to pretrial discovery. Fenenbockv. Director ofCorrections

4 for California, 692 F.3d 910, 916 n. 5 (9th Cir. 2012). Thus, the state court’s denial of
5

the claim cannot be an unreasonable application of clearly established law.

6

Gann also appears to argue that the denial of the records amounted to a violation

7

of his due process rights. (See Traverse at 15.) The Supreme Court has held that “[tjhe

8

suppression by the prosecution of evidence favorable to an accused upon request violates

9

due process where the evidence is material either to guilt or punishment, irrespective of

10

the good faith or bad faith of the prosecution.” Brady v. Maryland, 373 U.S. 83, 87

11

(1963). Although this rule originally covered only exculpatory evidence, the Supreme

12

Court has extended it to include impeachment evidence. United States v. Bagley, 473

13

U.S. 667, 676 (1985).

14

In order to establish a Brady violation, a defendant must show three things: (1) the

15

evidence must have been suppressed by the prosecution, either willfully or inadvertently,

16

(2) the withheld evidence must be either exculpatory or impeachment material, and (3)

17

the evidence must be material to the defense. Benn v. Lambert, 283 F.3d 1040,1052-53

18

(9th Cir. 2002) (citing Bagley, 473 U.S. at 676, 678.) Evidence is material under Brady

19

only if there is a “‘reasonable probability that, had the evidence been disclosed to the

20

defense, the result of the proceeding would have been different.’” Kyles v. Whitley, 514

21

U.S. 419, 433-34 (1995). A “reasonable probability” means a probability “sufficient to

22

undermine confidence in the outcome” of the trial. Bagley, 473 U.S. at 682; United

23

States v. Jernigan, 492 F.3d 1050, 1054 (9th Cir. 2007) (the defendant must show that

24

the government’s suppression of the evidence undermines confidence in the trial’s

25

outcome).

26

Here, defense counsel was given adequate opportunity to cross-examine Goodman

27

about his mental stability while at the jail, his refusal to take his medications, and his

28

ability to remember things during that time and after. (Lodgment No. 2, Rep. Tr, vol. 12
bCtambers MajorCASESiGann v. Caiceial - t:cvUlS-JAH (HabaV.UcvUIS-R&R (prosfl.upd. 71714

-51-

12cv1418

ER 246

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6337 Page 52 of 66

1

at 985-987.) Nonetheless, Goodman remained consistent when describing Gann’s

2

confession. Goodman knew specific details about the case which were corroborated by

3

physical evidence and other witness testimony. Gann has not shown how the failure to

4

disclose Goodman’s psychiatric records undermined confidence in the outcome of the

5

trial.

6

In Ritchie, the Supreme Court found that a criminal defendant has a due process

7

right to have the trial court review in camera files that were not available to the defendant

8

if the defendant can provide a basis for believing that the files have material evidence

9

under Brady. Ritchie, 480 U.S. 39, 58 and n. 15. That is exactly what occurred in this

10

case. The trial court reviewed the sealed records, as did the appellate court, and as has

11

this Court. There is nothing in the sealed medical records that undermines confidence in

12

the trial’s outcome. Bagley, 473 U.S. at 682. Accordingly the appellate court’s denial

13

ofthe claim was neither contrary to nor an unreasonable application of clearly established

14

law. See Ritchie, 480 U.S. at 58.

15

Finally, to the extent Gann claims he was denied an opportunity for effective

16

cross-examination of Goodman at trial {see Traverse at 15), he is not entitled to relief.

17

“The main and essential purpose of confrontation is to secure for the opponent the

18

opportunity of cross-examination.” Davis v. Alaska, 415 U.S. 308, 315-16 (1974). In

19

Davis, a “crucial witness for the prosecution” was on juvenile probation both at the time

20

of the events about which he testified and at trial. Id. at 310-311. Because of state rules

21

requiring confidentiality of juvenile adjudications, the trial court refused to allow any

22

cross-examination about the witness’s juvenile history. The Supreme Court held that the

23

state court had violated the defendant’s right to confront the witnesses against him when

24

it refused to allow the defense to cross-examination him about his juvenile criminal

25

record and probation status. The Court explained that “[t]he State’s policy interest in

26

protecting the confidentiality of a juvenile offender’s record cannot require yielding of

27

so vital a constitutional right as the effective cross-examination for bias of an adverse

28

witness.” Id. at 320.
I'Chamtwrs MajoriCASES.Gann v. Caieet a) • i:evUI8-jAH(HabeU2cvl4lS-R£Rtprosei.wpA 71714

-52-

12cvl418

ER 247

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6338 Page 53 of 66

1

Nevertheless, ‘“the Confrontation Clause guarantees an opportunity for effective

2

cross-examination, not cross-examination that is effective in whatever way, and to

3

whatever extent, the defense might wish.”’ Van Arsdall, 475 U.S. at 679, 684 (quoting

4

Delaware v. Fensterer, 474 U.S. 15,20 (1985) (per curiam)). The right to cross-examine,

5

as guaranteed by the Confrontation Clause, provides the opportunity to “expose to the

6 jury the facts from which jurors . . . could appropriately draw inferences relating to the
7

reliability of the witness.” Davis, 415 U.S. at 318. A defendant meets his burden of

8

establishing a Confrontation Clause violation by showing that “[a] reasonable jury might

9

have received a significantly different impression of [a witness’s] credibility had ...

10

counsel been permitted to pursue his proposed line of cross-examination.” Van Arsdall,

11

475 U.S. at 680; Slovikv. Yates, 556 F.3d 747, 753 (9th Cir.2009).

12

Here, the trial court reviewed Goodman’s records and declined to allow defense

13

counsel to review them before trial began. The court stated, however, that if Goodman

14

testified in direct contradiction to information contained in the records, the court might

15

reconsider. Defense counsel did not renew his request for the information when

16

Goodman testified. (See Lodgment No. 2, Rep. Tr., vol. 12 at 955-1022.) More

17

importantly, defense counsel cross-examined Goodman at length about his mental health

18

during the time he was in Maricopa County Jail, the medications he did or did not take

19

while there, and his mental health before and after being released from jail. (See id. at

20

985-88.) Goodman testified that he was placed in the psychiatric ward at the jail after

21

accusing a deputy of misconduct during a search. During the incident, Goodman started

22

yelling about being in the CIA and that he was going to get all the pedophiles “like him.”

23

(Id. at 985.) Goodman admitted on cross that he was prescribed Lithium (a mood

24

stabilizer), Respiratol (an anti-phsychotic), and Ativan (to treat anxiety), but he refused

25

to take the medications. (Id. at 986-87.) He was told by jail medical personnel that the

26

medications were to treat bipolar disorder (Id. at 987), although he had never been

27

diagnosed with a mental disorder before or since. (Id. at 937.)

28

I.'iChamben Major CASESiGann v. Ca« eta) - 12cvUIS-JAH |Habei',i:cv|4|S-RiR(pro sel.upd. 71714

-53-

12cvl418

ER 248

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6339 Page 54 of 66

1

Defense counsel was also able to elicit testimony of some fanciful ideas Goodman

2

had expressed to Detective Smith. For instance, Goodman claimed he was going to make

3

a million dollars writing a book about his drug dealing days. (Id. at 995.) He was
4 considering moving to Seattle to work for Microsoft or Hewlett Packard, making screen
5

savers. (Id. at 1002.) Goodman claimed he had been Martha Stewart’s accountant, Peter

6

Bacanovic’s, cell mate in federal prison. Bacanovic was going to set him up with a book

7

publisher who would pay him while he finished his book. Bacanovic was also going to

8

set him up with Hollywood producers. (Id. at 1005.) He told Detective Smith he would

9

like to get back into modeling, and might get an $80,000 contract to redo a strip club in

10

Scottsdale, Arizona. (Id. at 1002.) He admitted past drug use and prior convictions. (Id.

11

at 956-59, 975, 983.)

12

Defense counsel was given ample opportunity to cross-examine Goodman on the

13

state of his mental health during his incarceration in Maricopa County jail, and in

14

particular at the specific time Gann confessed to him. Moreover, defense counsel was

15

given wide breadth to elicit testimony on cross-examine that he hoped would impeach

16

Goodman’s credibility in general.

17

Amendment right to effective cross-examination. See United States v. Adamson, 291

18

F.3d 606, 612 (9th Cir. 2002) (quoting Van Arsdall, 475 U.S. at 679). The state court’s

19

denial of the claim was therefore neither contrary to, nor an unreasonable application of,

20

clearly established law.

Gann has not shown he was denied his Sixth

21

Even assuming error, Petitioner would not be entitled to relief because he has not

22

demonstrated prejudice. See Brecht, 507 U.S. at 637. Defense counsel amply impeached

23

Goodman about his mental health issues and specifically his time in Maricopa County

24

Jail. Meanwhile, Goodman’s testimony regarding Gann’s confession was specific and

25

corroborated by other independent evidence, as discussed above. Thus, the failure to

26

disclose Goodman’s psychiatric records did not have a substantial injurious effect on the

27

outcome.

28

bChunbersMajor'iCASESiGann v. Caieet al- UcvHIS-JAH (Habe'\i:cvl4l*.R£R(prosel.»pi 71714

-54-

12cvl418

ER 249

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6340 Page 55 of 66

1

In sum, the Court therefore finds the state court’s denial of Gann’s claim that

2

Goodman’s psychiatric records should have been turned over to the defense under the

3

Sixth Amendment (before or during trial) and the due process clause was neither contrary

4

to, nor an unreasonable application of clearly established law.9 See 28 U.S.C. § 2254(d);

5

Williams, 529 U.S. at 407-08. Even presuming error, it was harmless. Brecht, 507 U.S.

6

at 637. The Court therefore RECOMMENDS claim five be DENIED.

7

H.

8

In claim six, Gann argues his due process rights were violated when the jury was

9

improperly instructed regarding the use of Hansen’s statements. (Pet. at 12.) He claims

10

the jury should not have been given instructions on conspiracy, pursuant to CALCRIM

11

No. 416 and should not been instructed that they could consider Hansen’s statements for

12

their truth if it found that they had been made in the furtherance of a conspiracy, under

13

CALCRIM No. 418. (Id.)

14

1.

Jury Instructions

Exhaustion

15

Although Respondent does not raise exhaustion as a defense, it appears Gann failed

16

to present this claim to the California Supreme Court. Habeas petitioners who wish to

17

challenge either their state court conviction or the length of their confinement in state

18

prison, must first exhaust state judicial remedies. 28 U.S.C. § 2254(b), (c); Granberry

19

v. Greer, 481 U.S. 129, 133-34 (1987). To exhaust state judicial remedies, a California

20

state prisoner must present the California Supreme Court with a fair opportunity to rule

21

on the merits of every issue raised in his or her federal habeas petition. 28 U.S.C.

22

§ 2254(b), (c); Granberry, 481 U.S. at 133-34; see also Duncan v. Henry, 513 U.S. 367,

23

365 (1995). If the claim was not presented to the state’s highest court on direct appeal,

24

state collateral remedies must be exhausted. Reigerv. Christensen, 789 F.2d 1425,1427

25

(9th Cir. 1986). “The burden of proving that a claim has been exhausted lies with the

26

petitioner.” Matthews v. Evatt, 105 F.3d 907, 911 (4th Cir. 1997); seeBreardv. Pruett,

27
28

9 The appellate court cited Hammon, which thoroughly discusses the binding Supreme Court
precedent of Ritchie, Davis and Brady. See Hammon, 15 Cal.4th at 1123-28.
OChamberc Major CASES\Gaw> v. Care cut - !2cvl41SOAH (Habei',12cvl4IS-RiJt u>rosel.»pd. 71714

-55-

12cvl418

ER 250

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6341 Page 56 of 66

1

134 F.3d 615, 619 (4th Cir. 1998); Lambert v. Blackwell, 134 F.3d 506, 513 (3d Cir.

2

1997); Oylerv. Allenbrand, 23 F.3d 292,300 (10th Cir. 1994); Rustv. Zent, 17F.3dl55,

3

160 (6th Cir. 1994).

4

Here Gann raised this jury instruction claim in the California Court of Appeal in

5

a supplemental opening brief. (Lodgment No. 7.) That court denied the claim in its

6

reasoned opinion. (LodgmentNo. 13at23-24.) In his petition for review to the supreme

7

court, however, Gann failed to raise the instructional claim. (See Lodgment No. 16.)

8

Thus, upon the record before this Court, it does not appear that Gann presented the state

9

supreme court with a fair opportunity to rule on the merits of the claim. Therefore the

10

claim appears to be unexhausted.

11

Nevertheless, as discussed below, it is absolutely clear that habeas relief is not

12

warranted on this ground; and so, in the interests of judicial economy, this Court will

13

consider the claim on the merits. See 28 U.S.C. § 2254(b)(2) (“An application for a writ

14

of habeas corpus may be denied on the merits, notwithstanding the failure of the applicant

15

to exhaust the remedies available in the courts ofthe State.”); Cassettv. Stewart, 406 F.3d

16

614,623 (9th Cir. 2005) (federal court may deny unexhausted petition on the merits only

17

when it is perfectly clear that petitioner does not raise a colorable federal claim; standard

18

avoids waste of state and federal resources when prisoner presenting “hopeless petition”

19

is sent from federal court back to state courts).

2.

Merits

20

Gann argues his due process rights were violated when the trial court instructed the

21

jury pursuant to CALCRIM No. 416 and CALCRIM No. 418. Under CALCRIM 416,

22

the trial court instructed the jury regarding “evidence of an uncharged conspiracy.” The

23

instruction defined a member of a conspiracy as “criminally responsible for the acts or

24

statements of any other member of the conspiracy done to help accomplish the goal of the

25

conspiracy.” (LodgmentNo. 1, Clerk’s Tr., vol. 2 at 408.) The instruction required the

26

prosecution to prove that at the time of the agreement, the conspiracy included not just

27

a conspiracy to commit murder but a conspiracy intended to commit murder and escape

28

detection. (Id.) Under CALCRIM No. 418, the jury was permitted to consider Hansen’s
bChambers MsjorCASES'Gsnn v. Cate cl il - 12cv!4!S-JAH (HsteV.IZcvl-ilg-R&R iprose).«p4 ?I7N

-56-

12cvl418

ER 251

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6342 Page 57 of 66

1

pre-arrest statements as evidence against Gann only if the jury found, by a preponderance

2

of evidence, there was a conspiracy and that Hansen made the statement in order to

3

further the goal of the conspiracy. (Id. at 412.)

4

A challenge to a jury instruction solely as an error under state law does not state

5

a claim cognizable in federal habeas corpus proceedings. See Estelle, 502 U.S. at 71 -72.

6

To obtain federal collateral relief for errors in the jury charge, a petitioner must show that

7

the ailing instruction by itself so infected the entire trial that the resulting conviction

8

violates due process. See Estelle, 502 U.S. at 72; Cupp v. Naughten, 414 U.S. 141, 147

9

94 (1973); see also Donnelly v. DeChristoforo, 416 U.S. 637,643 (1974) (‘“[Ijtmustbe

10

established not merely that the instruction is undesirable, erroneous or even “universally

11

condemned,” but that it violated some [constitutional right].’”). Thus to the extent Gann

12

argues that the instructions were a misstatement of California law, he is not entitled to

13

habeas relief.

14

Gann’s due process claim is essentially a repackaging ofhis argument in claim one,

15

that the state court unreasonably concluded that Hansen’s statements were made in

16

furtherance of a conspiracy. He again argues the conspiracy ended with MacNeil’s

17

murder, there was insufficient evidence of a conspiracy to avoid detection, and the

18

admission of Hansen’s statements to the 911 dispatcher, Officer Forsey and Detective

19

Rivera, should not have been admitted as substantive evidence against him. (Pet. at 12,

20

see also Traverse at 16-17.) As he did in claim one, Gann again cites Krulewitch and

21

Grunewald as support. (Traverse at 16-17.) The state appellate court denied the claim,

22

citing the same reasons it had discussed with regard to Gann’s first claim — namely that

23

“the trial court reasonable concluded the conspiracy did not terminate with MacNeil’s

24

murder, but rather, that the conspiracy included an agreement to make it appear that

25

MacNeil was murdered during a home-invasion robbery.” (Lodgment No. 13 at 24.)

26

Likewise, here, Gann is not entitled to habeas relief on claim six, for the same reasons

27

discussed at length in section IV(C)(2) of this Report and Recommendation. Gann has

28

l;-Chamt>efs MajerCASES\Gsnn v. Caienal- !:cvl4lS-JAH(H2beli:cvl41$-R£R(Pro JtVupd. 71714

-57-

12cvl418

ER 252

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6343 Page 58 of 66

1

not met his burden under § 2254(d); and he cannot show prejudice. Brecht, 507 U.S. at

2

637, The Court RECOMMENDS the claim be DENIED.
Rejoinder

3

I.

4

Finally, in claim seven, Gann argues he was denied a fair trial when his case was

5

rejoined with Hansen’s after his first trial (which had been severed from Hansen’s)

6

resulted in a mistrial. (Pet. at 13.) Gann raised this claim in a petition for writ of habeas

7

corpus to the California Supreme Court. (Resp’t Lodgment No. 23.) The petition was

8

denied with citation to People v. Duvall, 9 Cal. 4th 464, 474 (1995); In re Dixon, 21 Cal.

9

2d 756, 759 (1953); In re Swain, 34 Cal. 2d 300, 304 (1949). (Lodgment No. 24.)

10

Respondent argues Gann’s claim is unexhausted.

11

alternative, Respondent contends it is procedurally defaulted and fails on the merits. (Id

12

at 39-43.)
1.

13

(See Answer at 26-28.) In the

Exhaustion

14

Respondent argues Petitioner failed to exhaust claim seven because the California

15

Supreme Court cited Duvall, in denying Gann’s petition for writ of habeas corpus. A

16

Duvall citation stands for the proposition that the state court will not issue an order to

17

show cause requiring a return unless a habeas petition does two things: (1) states “fully

18

and with particularity the facts on which relief is sought”; and (2) includes “copies of

19

reasonably available documentary evidence supporting the claim, including pertinent

20

portions of trial transcripts and affidavits or declarations.” Duvall, 9 Cal.4th at 474. The

21

state supreme court also cited In re Swain, which similarly articulates California’s

22

procedural requirements that a California habeas petitioner allege with particularity the

23

III

24

facts supporting his claims and explain and justify any delay in the presentation of the

25

claims. See In re Swain, 34 Cal. 2d 300, 304 (1949).

26

A Swain citation means that a petitioner has failed to “allege with particularity the

27

facts upon which he would have a final judgment overturned” or to explain his delay in

28

raising his claim. Swain, 34 Cal.2d at 304. While a reference to Swain may signify that
^Chambers MajorCASES;Gann v. Caieetal- IlcvUIS-JAH (H*bel.12cvl4i$-R&R (prose).Mpi 71714

-58-

12cvl418

ER 253

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6344 Page 59 of 66

1

the court deemed the petition untimely, when it is accompanied by a citation to Duvall,

2

a Swain citation indicates a dismissal for lack ofparticularity. See Pombrio v. Hense, 631

3

F.Supp.2d 1247, 1252 (C.D. Cal. 2009); see also Garcia v. Carey, 37 Fed. App’x 279,

4

280 (9th Cir. 2002) (“The court’s specific citation to 34 Cal.2d at 304 in this instance

5

clearly reveals its intention to rely on Swain’s particularity rationale to deny Petitioner’s

6

application.”)

7

Denials based upon Swain and Duvall indicate that a petitioner has failed to

8

comply with the requirement that he “allege with sufficient particularity the facts

9

warranting habeas relief.” King v. Roe, 340 F.3d 821, 823 (9th Cir. 2003); see also

10

Gaston v. Palmer, 417 F.3d 1030, 1039 (9th Cir. 2005) (characterizing a denial order

11

based on Swain and Duvall as the equivalent of “the grant of a demurrer with leave to

12

refile” under California law, namely, “a holding that [the petitioner] has not pled facts

13

with sufficient particularity”) (as modified on other grounds by 447 F.3d 1165 (9th Cir.

14

2006)).10

15

Under California law, this deficiency “can be cured in a renewed petition.” Kim

16

v. Villalobos, 799 F.2d 1317,1319 (9th Cir. 1986); see also King, 340 F.3d at 823 (Swain

17

and Duvall “allow amendment to comply”). Thus, where the California Supreme Court

18

denies a habeas petition with citations to Duvall or Swain, the denial can signify a failure

19

to exhaust available state remedies. See Kim, 799 F.2d at 1319. However, a federal

20

habeas court must examine independently the sufficiency of the petitioner’s California

21

Supreme Court petition, and will reach the merits of the claims where the state petition

22

presented the claims “with as much particularity as is practicable^]” Id. at 1320.

23

Applying the independent examination required by the decision in Kim to this case,

24

the Court finds that Petitioner failed to fairly present the claim with as much particularity

25

as practicable in his habeas petition filed in the California Supreme Court. Kim, 799 F.2d

26

at 1320. In his petition, Gann argued that his due process rights were violated by

27
28

10 Having found that the citations to Duvall and Swain indicate the state court found Petitioner
“had not pled facts with particularity,” see King, 340 F.3d at 823, the Court rejects Respondent’s
argument that the citation to Swain indicates a separate untimeliness bar. (See Answer at 38-39)
I: .Chambers Mijor.CASES'Carai v. Caieetal- 12cv141*-jaH iHahey.12;vl4IS-R&R iprosel.wpi 71714

-59-

12cvl418

ER 254

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6345 Page 60 of 66

1

rejoinder of his case with Hansen’s because he and Hansen had adverse and competing

2

defenses. He further argued that Hansen’s testimonial hearsay, which was admitted

3

through Officer Forsey and Detective Rivera was not presented at his first trial, which

4 resulted in a different outcome.

He claimed that “the defense for Hansen repeatedly

5 presented evidence that would otherwise have been inadmissible since it was not relevant
6 to the case in chief, but was highly prejudicial to the case in chief.” (Lodgment No. 23
7

at 3-4.)

Gann did not, however, specifically explain how his defense differed from

8 Hansen’s. Gann’s claim was presented in only a short paragraph, and the petition did not
9

include any supporting documents or references to the record. (Id.) He failed to provide

10

specific facts regarding Hansen’s statements and how it was allegedly prejudicial to his

11

case. And he made only general allegations of other “inadmissible evidence” that was

12

admitted. Accordingly, Petitioner failed to present the claim to the California Supreme

13

Court with sufficient particularity. See Kim, 799 F.2d at 1320. The claim is unexhausted.

14 Nonetheless, for the reasons discussed below in section IV(I)(3) of this Report and
15

Recommendation, the claim is denied.

16

federal court may deny unexhausted petition on the merits when it is perfectly clear that

See Cassett, 406 F.3d at 623 (concluding a

17 petitioner does not raise a colorable federal claim).
18

2.

Procedural Default

19

Respondent also argues the claim is procedurally defaulted. (Answer at 39-41.)

20

Specifically, Respondent argues that this claim is procedurally barred because the state

21

court denied pursuant to Dixon, 41 Cal. 2d at 759. Under Dixon, a claim as forfeited

22 because petitioner could have raised this claim on direct appeal but failed to do so. Id.
23

In the interests of judicial economy and efficiency, the Court will not address the

24 procedural default issue but instead resolve the merits of this claim. See Lambrix v.
25 Singletary, 520 U.S. 518, 525 (1997) (court may choose to proceed to merits of habeas
26 petition rather than consider procedural bar); Franklin v. Johnson, 290 F.3d 1223, 1232
27 (9th Cir.2002); Walters v. Maass, 45 F.3d 1355, 1360 n. 6 (9th Cir.1995); see also
28 Samayoa v. Ayers, 649 F.Supp.2d 1102,1115-16 (S.D. Cal. 2009) (exercising discretion

Ii'Ctambers Majof.CASES Gann v. Cateetil- Uev|4l8-JAH l.Hite).Ucvl4[8-R&R (pro jel.wpd. 7!714

-60-

12cv1418

ER 255

Case 3:12-cv-01418-JAH-BLM

Document 28 Filed 07/17/14 PagelD.6346 Page 61 of 66

1

to adjudicate merits of claim even though respondent raised procedural default defense

2

under Dixon and similar cases).

3

3.

Merits

4

Gann argues that his due process rights were violated by the rejoinder of his case
5 with Hansen’s after his first trial ended with a hung jury. (Pet. at 13.) He claims that the

6

defense for Hansen was able to introduce evidence damaging to Gann’s defense that

7

would was not introduced at his first trial and would have otherwise been inadmissible

8

in the prosecution’s case-in-chief. Specifically, he argues that because of the joint trial,

9

his jury heard inadmissible evidence, such as Hansen’s pre-arrest statements. (Id.)

10

Generally, when a state court does not reach the merits of a habeas, there is no state

11

court decision on the issue to which to accord deference. See Pirtle v. Morgan, 313 F.3d

12

1160,1167 (9th Cir. 2002). Here, however, the California Court of Appeal reviewed the

13

merits of the claim and denied it. Thus, it appears the Court reviews the appellate court’s

14

decision to determine whether it was contrary to, or an unreasonable application of

15

clearly established law. In denying Gann’s claim on habeas, the Court of Appeal stated:

16

The Legislature has established a statutory preference for joint trial
of defendants and severance for trial is discretionary. (Pen. Code. § 1098.)
The trial court has the discretion to impanel separate juries as an alternative
to severance when evidence to be offered is not admissible against all
defendants. (People v. Harris (1989) 47 Cal.3d 1047, 1075.)

17
18
19
20
21
22
23
24

On appeal Gann challenged the admission of Hansen’s statements
made prior to her arrest and during interview with detectives. This court
determined the statements were properly admitted under the hearsay
exception for statements of a coconspirator in furtherance of a conspiracy.
Gann has not shown that the denial of severance and dual juries resulted in
identifiable prejudice or ‘“gross unfairness . . . such as to deprive the
defendant of a fair trial or due process of law.’” (People v. Cummings
^1993) 4 Cal. 4th 1233,1287, citing people v. Turner (1984) 37 Cal.3d 30z,
(Lodgment No. 22 at 2.)

25

In deciding whether to separately try joint defendants, a court must consider

26

whether “there is a serious risk that a joint trial would compromise a specific trial right

27

of one of the defendants, or prevent the jury from making a reliable judgment about guilt

28

or innocence.” Zafiro v. United States, 506 U.S. 534, 539 (1993). However, federal
tChsmhcrc MajorCASES'Gann v. Cate el al - I’cvUISJAH (HateM’cvUIS-R&R (proschupd 71714

-61-

12cvl418

ER 256

;

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6347 Page 62 of 66

1

habeas review of a state court’s denial of a motion to sever is narrower in scope: the

2

question is whether a misjoinder rose to the level of a due process violation. “Improper

3

joinder does not, in itself, violate the Constitution.” United States v. Lane, 474 U.S. 438,

4

446 n. 8 (1986). Misjoinder rises to the level of a due process violation “only if it results

5

in prejudice so great as to deny defendant his Fifth Amendment right to a fair trial.” Id.;

6

(accord Grisby v. Blodgett, 130 F.3d 365, 370 (9th Cir. 1997)).

7

In determining whether the failure to sever deprived defendant of his right to a fair

8

trial, a federal habeas court does not rely on state law governing severance in state trials,

9

nor does it consider procedural rights to severance afforded in federal trials. See Grisby,

10

130 F.3d at 370. Petitioner bears the burden of proving that the denial of severance

11

rendered his trial fundamentally unfair, Grisby, 130 F.3d 365, 370 (9th Cir. 1997), and

12

must establish that prejudice arising from the failure to grant a severance was so “clear,

13

manifest, and undue” that he was denied a fair trial. Lambright v. Stewart, 191 F.3d

14

1181,1185 (9th Cir. 1999) (quoting United States v. Throchnorton, 87 F. 3d 1069,1071-

15

72 (9th Cir. 1996)). In addition, the impermissible joinder must have had a substantial

16

and injurious effect or influence in determining the jury’s verdict, the prejudice standard

17

applicable in all state-conviction habeas cases. Sandoval v. Calderon, 241 F.3d765,772

18

(9th Cir. 2000).

19

Here, Gann and Hansen were tried together, with separate juries. The juries heard

20

evidence jointly at times and separately in other instances. The trial court made individual

21

determinations as to the admissibility of evidence as to each defendant. For instance,

22 .Detective Rivera testified before both juries, as well as just in front of Hansen’s jury. In
23

Lambert, 191 F.3d at 1181, the Ninth Circuit held that the defendant's Sixth Amendment

24

rights were not violated where the trial court impaneled two juries in a murder trial to

25

separately consider evidence against each defendant which could not be introduced

26

during a joint trial before a single jury. The court stated that “dual juries are in wide use

27

and [ ] they have worked out just fine. In fact, we have accepted the use of dual juries in

28

noncapital cases, (citations omitted).” Id. at 1185. The court noted that despite the
i:\ChambersMajor,CASES'Gann v.Cateeial- UcvUIS-JAH(Habel !:cv|4IS-R&Riprossl.wpd.71714

-62-

12cvl418

ER 257

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6348 Page 63 of 66

1

dangers of prejudice, the Supreme Court has lauded the benefits of joint trials which

2

‘“promote efficiency and serve the interests of justice by avoiding the scandal and

3

inequity of inconsistent verdicts.”’ Id. at 1186. The court further stated: “We are

4

satisfied that the use of dual juries can actually palliate, rather than exacerbate, the risks

5

of a joint trial. Particularly in a case like this one, where the main reason for a severance

6

was one specific class of evidence, the use of dual juries can capture both the advantages

7

of a joint trial and the protections of separate trials.” Id.

8

Gann argues that his due process rights were violated because he and Hansen had

9

antagonistic defenses which precluded the jury from accepting his version of the facts or

10

making a reliable judgment about his guilt or innocence. (Pet. at 13.) A defendant may

11

be entitled to a separate trial if “the core of the codefendant’s defense is so irreconcilable

12

with the core of his own defense that the acceptance of the codefendant’s theory by the

13 jury precludes acquittal of the defendant.” Throckmorton, 87 F.3d at 1072. This was not
14

the case here. Gann’s defense was essentially that there was insufficient evidence to

15

show he was involved, suggesting Hansen shot MacNeil herself or an unknown man did.

16

Hansen’s defense was that Gann shot MacNeil after she had backed out of their plan.'

17

Although they had somewhat antagonistic defenses, they were not irreconcilable. See

18

United States v. Cruz, 127 F.3d 791, 799-800 (9th Cir. 1997) (noting that antagonistic

19

defenses do not require severance, especially if the defenses are not irreconcilable)

20

(overruled on other grounds, United States v. Jimenez Redo, 537 U.S. 270 (2003)).

21

Moreover, while Gann and Hansen may have had antagonistic defenses, this was not a

22

case in which a single jury was attempting to reconcile two different competing defenses.

23

Hansen and Gann each had their own jury and each jury heard different evidence. The

24

state court’s denial of Gann’s due process severance claim was neither contrary to, nor

25

an unreasonable application of, clearly established law. See Grisby, 130 F.3d at 370.

26

In his Traverse, Gann argues the use of Hansen’s out-of-court pre-arrest statements

27

at the joint trial amounted to a violation of his Sixth Amendment rights under Bruton v.

28

United States, 391 U.S. 123, 134-37 (1968). (Traverse at 20.)
li-Chanbea MajorCASES.Gaiui v. C«ie et al- I2cvl4|g-JAH (HabeV 12cv14IS.R&R (prosel.upd. 71714

-63-

Bruton only applies
12cvl418

ER 258

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6349 Page 64 of 66

1

where co-defendants are tried jointly; Bruton is inapplicable when the non-testifying

2

codefendant is severed out from the case or tried separately. See United States v. Mitchell,

3

502 F.3d at 965. Where defendants who would be tried together have invoked their Fifth

4

Amendment right not to testify, they may be tried before separate juries (as Gann and

5

Hansen were) in order to avoid Aranda/Bruton confrontation problems. See Hernandez

6

v. Small, 282 F.3d 1132, 1136 (9th Cir. 2002).

7

Furthermore, as the Supreme Court has made clear that the Confrontation Clause

8

only applies to the “testimonial” statements of an unavailable witness whom a defendant

9

has no opportunity to cross-examine before trial. See Crawford, 541 U.S. at 53-54.

10

Conversely, the Confrontation Clause does not bar the admission of “non-testimonial”

11

statements, even from a non-testifying co-defendant. See Whorton v. Bockting, 549 U.S.

12

406 413 (2007). Because Bruton is premised on the Confrontation Clause, it does not

13

apply to non-testimonial statements. See, e.g., United States v. Figueroa-Cartagena, 612

14

F.3d 69, 85 (1st Cir. 2010); United States v. Smalls, 605 F.3d 765, 768 n. 2 (10th Cir.

15

2010).

16

Here, Hansen’s confession was not admitted against Gann. Hansen’s jury heard

17

that evidence separately, as required under Bruton. Moreover, to the extent Gann’s jury

18

heard evidence of Hansen’s pre-arrest statements, to the 911 dispatcher, Officer Forsey

19

and Detective Rivera, the state court reasonably determined those statements were
20 admissible under the Confrontation Clause for all reasons stated it sections IV(C)(2)(a)21

(c) of this Report and Recommendation.

22

In any event, even assuming error, Gann cannot show prejudice. Like other

23

Confrontation Clause claims, a Bruton claim is subject to harmless error analysis. See

24

Harrington v. California, 395 U.S. 250, 254 (1969); United States v. Sutton, 794 F.2d

25

1415,1428 (9th Cir. 1986). This Court has already concluded in section IV(C)(2)(c)(iv)

26

of this Report and Recommendation that even without any evidence regarding Hansen’s

27

statements, there was more than sufficient evidence to support Gann’s conviction.

28

I:',Chambers Major CASESiGann v. Catena! -12cv 1118-JAH (Hate ) l 2cv 14! R-R&R iprosci.upd. 717)4

-64-

12cvl418

ER 259

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6350 Page 65 of 66

1

In sum, claim seven is procedurally defaulted. In addition, the denial of Gann’s

2

due process severance claim and Bruton claim was neither contrary to, nor an

3

unreasonable application of, clearly established law. Gann has also failed to establish

4

prejudice. The Court RECOMMENDS claim seven be DENIED.

5

J.

6

In his Traverse, Petitioner requests an evidentiary hearing to consider statements

7

made during the trial that were held off the record and to consider additional evidence

8

from attorney Morrison regarding Judge Link’s comment at Gann’s arraignment. (Pet.

9

at 21.) He also requests this Court review Goodman’s psychiatric records. {Id.). In

10

Cullen v. Pinholster, 563 U.S. -; 131 S.Ct. 1388, 1402 (2011), the Supreme Court held

11

that where habeas claims have been decided on their merits in state court, a federal

12

court’s review under 28 U.S.C.§ 2254(d)(1) - whether the state court determination was

13

contrary to or an unreasonable application of established federal law - must be confined

14

to the record that was before the state court. Pinholster,\31 S.Ct. at 1398. The Court

15

specifically found that the district court should not have held an evidentiary hearing

16

regarding Pinholster’s claims of ineffective assistance of counsel until after the Court

17

determined that the petition survived review under section 2254(d)(1). Id. at 1398; see

18

also Gonzalez v. Wong,661 F.3d 965, 979 (9th Cir. 2011). .

Request for an Evidentiary Hearing

19

Here, the Court has determined that none of Petitioner’s claims survive review

20

under section 2254(d)(1). As such, the Court is limited to the state court record. The

21

Court has reviewed Goodman’s sealed medical records from Maricopa County Jail, which

22

were part of the state court record, and which this Court considered in evaluating claim

23

five. As to evidence that was not before the state court, including additional evidence

24

regarding statements made by Judge Link off the record and evidence provided by

25

Morrison, the Court DENIES Gann’s request for an evidentiary hearing.

26

V.

CONCLUSION AND RECOMMENDATION

27

The Court submits this Report and Recommendation to United States District

28

Judge John A. Houston under 28 U.S.C. § 636(b)(1) and Local Civil Rule HC.2 of the
Ir.Charaben MajorCASES'Gann v. Caieei al. UevUlS-JAH (HaheV.12cvi4l8.R4R (prosebvpd. *1714

-65-

12cvl418

ER260

Case 3:12-cv-01418-JAH-BLM Document 28 Filed 07/17/14 PagelD.6351 Page 66 of 66

1

United States District Court for the Southern District of California. For all the foregoing

2

reasons, IT IS HEREBY RECOMMENDED that the Court issue an Order: (1)

3

approving and adopting this Report and Recommendation, and (2) directing that

4

Judgment be entered DENYING the Petition.

5

IT IS HEREBY ORDERED no later than August 18. 2014. any party to this

6

action may file written objections with the Court and serve a copy on all parties. The

7

document should be captioned “Objections to Report and Recommendation.”

8

IT IS FURTHER ORDERED any Reply to the Objections shall be filed with the

9

Court and served on all parties no later than September 12.2014. The parties are advised

10

that failure to file objections within the specified time may waive the right to raise those

11

objections on appeal of the Court’s Order. See Turner v. Duncan, 158 F.3d 449,455 (9th

12

Cir. 1998); Martinez v. Ylst, 951 F.2d 1153, 1157 (9th Cir. 1991).

13
14
15

16

DATED: July 17, 2014
y

17

BARBARA L. MAJOR
United States Magistrate Judge

18
19
20
21
22
23
24
25
26
27
28

I: Chambers Major.CASES'Gann v. Caeel ai- IZcvUlMAH iHabel'.UcvUlS-R&R (prose! wpd. 717N

-66-

12cvl418

ER 261

Casa3:12-cv-01418-JAH-BLM Document39 Filed 11/04/15 PagelD.6570 Page lot6

A

1

--5-

'£?

2
3
4

5
6

e

UNITED STATES DISTRICT COURT

9

SOUTHERN DISTRICT OF CALIFORNIA

10

NATHANIEL MARCUS GANN,

11

)
)
)
JEFFREY BEARD, etal,
)
)
Respondents.
)
______ )
v.

12
13
14
15

Petitioner,

)

Civil No. 12cvl418 JAH(BLM)
ORDER ADOPTING MAGISTRATE
JUDGE’S REPORT AND
RECOMMENDATION; DENYING
PETITION FOR WRIT OF HABEAS
CORPUS; AND DENYING
REQUEST FOR EVIDENTIARY
HEARING

INTRODUCTION

16

Petitioner, a state prisoner proceeding pro se, filed a petition for writ of habeas

17

corpus pursuant to 28 U.S.C. § 2254. Petitioner presents seven claims for relief in his

18

petition: (1) his Sixth Amendment rights were violated by the admission of out-of-court

19

statements made by a codefendant; (2) the trial court improperly allowed a former

20

girlfriend of petitioner to testify that he had raped her; (3) his due process rights were

21

violated by the cumulative impact of the evidentiary errors made at trial; (4) his due

22

process rights were violated by judicial bias; (5) the trial court denied his right to

23

effectively cross-examine a witness against him when it refused to disclose the witness’s

24

psychiatric records; (6) his due process rights were violated when the trial court

25

improperly instructed the jury; and (7) his due process rights were violated by the

26

rejoinder of his case with Hansen’s, after petitioner’s first trial resulted in a mistrial.

27

Respondent filed an answer to the petition. Petitioner filed a traverse, in which he

28

requested an evidentiary hearing. Pursuant to 28 U.S.C. § 636(b) (1 )and Local Civil Rule

Ucvl-US

ER 126

Casa 3:12-cv-01418-JAH-BLM

Document 39 Filed 11/04/15 PagelD.6571 Page 2 of 6

HC.2, the Honorable Barbara L. Major, United States Magistrate Judge, submitted a
2

report and recommendation (“report”) to this Court recommending the instant petition

3

be denied and petitioner’s request for evidentiary hearing be denied. Objections to the

i.

report were due by August 18, 2014, but neither party filed objections. After careful

5

consideration of the pleadings and relevant exhibits submitted by the parties, and for the

6

reasons set forth below, this Court ADOPTS the magistrate judge’s report in its entirety,

7

DENIES the instant petition and DENIES petitioner’s request for an evidentiary hearing.

8

BACKGROUND1

9

On January 28, 2008, petitioner was charged in an information with one count of

10

first degree murder, with a special circumstance (lying in wait). See Lodg. 1, Vol. 1 at 017-

11

19. On November 20, 2008, petitioner’s first jury trial ended in a mistrial when the jury

12

could not reach a unanimous verdict. Id, Vol. 5 at 743. On December 23, 2008, the trial

13
14

court granted the district attorney’s motion to rejoin petitioner’s case with Hansen’s case
in the same matter, which both defendants opposed. Id, Vol. 2 at 311-22; Id, Vol. 5 at

15

1014-22; Lodg. No. 4. Aug. Rep. Tr\, Vol. 11 at 1037-46. Following a jury trial at which

16

petitioner was tried with Hansen, with separate juries, petitioner was found guilty of

17

murder in the first degree by his jury. See Lodg. 1, Vol. 1 at 438. The jury found the

18

19

special circumstance was not true. Id. at 438-40. Petitioner was sentenced to 25 years to
ife in prison.

20

Petitioner appealed his conviction, through appellate counsel, on other grounds

21

than those raised here. On March 24, 2011, the appellate court affirmed his conviction

22

in a

23

2011, petitioner filed a petition for review before the California Supreme Court in which

24

he raised the four claims raised in the instant petition. See Lodg. 16. That petition was

25

denied without comment in July 2011. Lodg. 18.

26

partially published opinion. People v. Gann, 193 Cal. App.4th 994 (2011). In May

Petitioner subsequently filed the instant federal petition for writ of habeas corpus

27
i

28

The underlying facts set forth in tire report, taken directly from the California Court of Appeal’s
opinion affirming petitioner’s conviction on appeal, is adopted in toto, and referenced as if fullv set forth
herein. This Court provides only a brief procedural background.

2

12cv 1413

ER 127

Casai 3:12-cv-01418-JAH-BLM Document 39 Filed 11/04/15 PagelD.6572 Page 3 of 6
4

1

under 28 U.S.C. § 2254 in this Court on June 11, 2012. Docket No. 1. Upon initial

2

review of the Petition, this Court notified Petitioner that it appeared that Petitioner had

3

not exhausted his claim that his right to a fair trial was violated when he was improperly

4

tried with Hansen. Docket No. 2. On July 12, 2014, Petitioner filed a motion to stay so

5

that he could exhaust his unexhausted clam in state court. Docket No. 4. The San Diego

6

County Superior Court denied the petition which included his rejoinder claim. See Lodg.

7

20. Petitioner then brought only his rejoinder before the California Court of Appeal,

8

which denied the petition. See Lodg. No. 21 at 3-4, Lodg. 22. On March 13, 2013, the

9

California Supreme Court denied the same rejoinder claim. See Lodgs. 23, 24.

10

On March 27,2013, this Court denied Petitioner’s motion for stay and instructed

11

him to withdraw his unexhausted claim and seek a stay of the petition. Docket No. 7. On

12

March 29, 2013, Petitioner filed a notice of exhaustion of state court remedies. Docket

13

No. 9. This court then issued an order directing Respondent to respond on August 13,

14

2013. Docket No. 10. Respondent filed an answer on November 5, 2013. Docket No.

15

17. Petitioner filed a Traverse on December 5, 2013. Docket No. 19. On April 22, 2014,

16

this Court ordered Respondent to file supplemental lodgments under seal. The sealed

17

lodgments were submitted by the California Court of Appeal on May 9, 2014. Docket

18

No. 27.

19
20

21

DISCUSSION
1.

Legal Standard
The district court’s role in reviewing a magistrate judge’s report is set forth in 28

22

U.S.C. § 636(b)(1).

23

determination of those portions of the report ... to which objection is made,” and “ may

24

accept, reject, or modify, in whole or in part, the findings or recommendations made by

25

the magistrate [judge].” Id When no objections are filed, the Court may assume the

26

correctness of the magistrate judge’s findings of fact and decide the motion on the

27

applicable law. Campbell v. United States Dist. Court. 501 F.2d 196, 206 (9th Cir.

28

1974); Johnson v. Nelson, 142 F. Supp. 2d 1215, 1217 (S.D. Cal. 2001). Under such

Under this, statute, the district court “shall make a de novo

12cvl4iS

ER 128

Casai 3:12-cv-01418-JAH-BLM

Document 39 Filed 11/04/15 PagelD.6573

Page 4 of 6

circumstances, the Ninth Circuit has held that “a failure to file objections only relieves the
2

trial court of its burden to give de novo review to factual findings; conclusions of law must

3

still be reviewed de novo.” Barilla v. Ervin, 886 F.2d 1514, 1518 (9th Cir. 1989) (citing

l.

Britt v. Simi Valley Unified Sch. Dist.. 708 F.2d 452, 454 (9th Cir. 1983)).

5

2.

Analysis

6

The Court received no objections to the report and no request for an extension of

7

time in which to file any objections. Accordingly, the Court assumes the correctness of

8

Jtv_ magisti ate judge s factual findings and adopts them m Full. The Court has conducted

9

a de novo review, independently reviewing the report and all relevant papers submitted by

10

both parties, and finds that the report provides a thorough analysis of the claims presented

11

in the instant petition. Specifically, this Court agrees with the magistrate judge’s report

12

that petitioner’s Sixth Amendment rights were not violated as Hansen’s 911 call and

13

statements to Officer Forsey at the scene were non-testimonial responses to an “ongoing

14

emergency.”

15

additionally agrees that the state appellate court came to a reasonable conclusion when

16

it found that Hansen s statement to Detective Rivera during her interview was admissible

17

under the Confrontation Clause. See Moses v. Pavne. 555 F.3d 742, 754-55 (9th Cir

18

2009).

19

contrary to, nor an unreasonable application of, clearly established federal law.

See Michigan v. Bryant, 131 S.Ct. 1143, 1164 (2011).

This Court

Therefore, the state court’s conclusions concerning claim one were neither

• 20

This Court agrees that the admission of evidence is not subject to federal habeas

21

review unless a specific constitutional guarantee is violated or the error is of such

22

magnitude that the result violates the right to a fundamentally fair trial guaranteed by due

23

process. See Henry v, Kernan, 197 F.3d 1021, 1031 (9th Cir. 1999). This Court further

24

agrees that even the admission of irrelevant or overtly prejudicial evidence does not

25

constitute a due process violation sufficient for federal habeas relief absent Supreme Court

26

precedent. Accordingly, the state court’s denial of petitioner’s claim two was neither

27

contrary to, nor an unreasonable application of clearly established federal law. See Carev

28

v. Musladin, 549 U.S. 70, 77 (2006). Furthermore, this Court agrees that any cumulative

4

12cvl4IS

ER 129

*

Casai 3:12-cv-01418-JAH-BLM Document 39 Filed 11/04/15 PagelD.6574 Page 5 of 6

1

im pact

2

constitutional violation. See Manusco v. Olivarez. 292 F.3d 939, 957 (9th Cir 2002)

3

Thus, the state court s denial of claim three was neither contrary to, nor an unreasonable

L.

application of, clearly established law.

found in a single evidentiary error by the trial court does not rise to the level of a

5

Moreover, this Court agrees that petitioner has not shown that the trial judge’s
6 behavior rendered “the trial so fundamentally unfair as to violate federal due
process
7 under the United States Constitution.” Duckett v. Godinez. 67 F.3d 374, 740 (9th
Cir.
8

9

1995). Consequently, the state court’s denial of claim four was neither contrary to , nor
an unreasonable application of, clearly established federal law. The Court agrees with

10

Judge Major that petitioner has not met his burden by showing that “[a] reasonable jury

11

might have received a significantly different impression of [a witness’s] credibility

12

had...counsel been permitted to pursue his proposed line of cross-examination.”

13

Slovak
v. Yates, 556 F.3d 747, 753 (9th Cir. 2009). Petitioner has not shown he was denied his

14

Sixth Amendment right to effective cross-examination. Sge United States v. Adamson 291

15

F.3d 606,612 (9th Cir. 2002). As such, the state court’s denial of petitioner’s claim five

16 was neither contrary to, nor an unreasonable application of, clearly established law.
17

Next, the Court finds that petitioner has not shown prejudice stemming from the

18

tidal court s jury instruction concerning evidence of an uncharged conspiracy. Brecht v.
19 Abrahams on, 507 U.S. 619, 637 (1993). Since petitioner’s defense
at trial was not
20

ineconcilable to that of his codefendant, petitioner’s due process rights were not violated

21

even though their defenses were inherently contentious. See United States v. Cruz. 127

22

F.3d 791, 799-800 (9th Cir. 1997). This Court agrees with Judge Major that petitioner’s

23

claim seven is procedurally defaulted, and the state court’s denial of petitioner’s due
24 process severance claim and Bruton claim was neither contrary to, nor an unreasonable
25

application of, clearly established federal law. Accordingly, this Court finds that an

26

evidentiary hearing is not necessary or appropriate in this case.

27

28

CONCLUSION AND ORDFJR
5

12cv1413

ER 130

A

*

Casai 3:12-cv-01418-JAH-BLM Document 39 Filed 11/04/15 PagelD.6575 Page 6 of 6

1

For the reasons set forth above, IT IS HEREBY ORDERED that:

2

1.

3

The findings and conclusions of the magistrate judge presented in the report
are ADOPTED in their entirety;

4

2.

The instant petition is DENIED with prejudice in its entirety; and

5

3.

Petitioner’s request for an evidentiary hearing is DENIED.

6

The Clerk of Court shall enter judgment in accordance with this Order.

7
8

Dated:

November 3, 2015

k

r

9
10
11

l JOHN A. HOUSTON
j United States District Judge

12
13
14
15
16
17
18
19
20

21
22
23
24
25

26
27
28

6

12cvl413

ER 131

Additional material
from this filing is
available in the
Clerk's Office.

